No. 19–
IN THE

Supreme Court of the United States
CRAIG R. JALBERT, IN HIS CAPACITY AS TRUSTEE
FOR F2 LIQUIDATING TRUST, on behalf of himself and
all others similarly situated,
Petitioner,
v.
U.S. SECURITIES AND EXCHANGE COMMISSION,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
PETITION FOR WRIT OF CERTIORARI
WILLIAM R. BALDIGA
JOSHUA P. DUNN
BROWN RUDNICK LLP
One Financial Center
Boston, Massachusetts 02111
ASHLEY L. BAYNHAM
BROWN RUDNICK LLP
Seven Times Square
New York, New York 10036
May 18, 2020

ALEX LIPMAN
LIPMAN LAW PLLC
45 West 29th Street
Suite 303
New York, New York 10001
Telephone: (212) 401-0070
alexlipman@lipmanpllc.com
(Counsel of Record)

i
QUESTIONS PRESENTED
Whether a federal government agency
commits a structural separation-of-powers violation
of exercising a legislative function when, in addition
to explicitly authorized penalties, it obtains other
penalties under the label of “disgorgement,” which
were not authorized by Congress and the imposition
of which conflicts with the congressional statutory
punitive and remedial scheme.
Whether a waiver of judicial review by a
respondent in connection with a settlement
agreement with a federal government agency is valid
and enforceable against that respondent in an action
by the respondent claiming that the agency
committed a structural separation-of-powers
violation by extracting from the respondent a penalty
labeled “disgorgement” that Congress did not
authorize and which was imposed in addition to
what the agency found to be the appropriate
statutory penalty.
Whether a federal government agency’s order
imposing unauthorized penalties labeled
“disgorgement” is void in relevant respects because
the agency did not have the power to impose
penalties without explicit congressional
authorization.

ii
PARTIES TO THE PROCEEDINGS
Petitioner, Craig R. Jalbert, in his capacity as
trustee for F2 Liquidating Trust (the “Trust”), was
the plaintiff in the proceedings in the United States
District Court for the District of Massachusetts (the
“District Court”) and the appellant in the United
States Court of Appeals for the First Circuit (the
“First Circuit”).
Respondent, the Securities and Exchange
Commission (the “SEC”), was the defendant in the
District Court and the appellee in the First Circuit.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, the
undersigned counsel of record for the Trust hereby
states that the Trust has no parent corporation and
that no publicly held company owns 10% or more of
its stock.

iv
DIRECTLY RELATED PROCEEDINGS
-United States District Court for the District of
Massachusetts: Craig R. Jalbert v. Securities &
Exchange Commission, No. 1:17-cv-12103-FDS. An
order of dismissal entered in the District Court on
August 22, 2018.
-United States Court of Appeals for the First Circuit:

Craig R. Jalbert v. U.S. Securities & Exchange
Commission, No. 18-2043. Judgment entered in the
First Circuit on December 20, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDINGS ......................... ii
CORPORATE DISCLOSURE STATEMENT .......... iii
DIRECTLY RELATED PROCEEDINGS ................. iv
TABLE OF CONTENTS ............................................ v
TABLE OF APPENDICES ..................................... viii
TABLE OF AUTHORITIES...................................... ix
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
RELEVANT STATUTORY AND
REGULATORY PROVISIONS ............................. 1
STATEMENT OF THE CASE ................................... 2
A. Introduction ..................................................... 2
B. Factual Background ........................................ 6
C. Procedural Background ................................... 8
ARGUMENT .............................................................. 9
I. The SEC’s Action Amounts to a NonWaivable Structural Separation-ofPowers Violation .............................................. 9

vi
A. The Decisions of this Court
Demonstrate that the SEC has
Committed a Structural Separationof-Powers Violation by Arrogating to
Itself the Legislative Power to Create
Penalties ................................................... 10
1. The Power to Create Penalties is a
Legislative Power Belonging
Solely to Congress ............................... 11
2. Congress has Enacted a Carefully
Constructed Remedial Framework
in the Securities Context that
Does Not Authorize Punitive
Disgorgement ...................................... 12
3. The SEC has Usurped the
Legislative Power to Create
Penalties by Using Disgorgement
in an Unauthorized Penal Fashion .... 20
B. Structural Separation-of-Powers
Violations Like the One in this Case
Cannot be Waived .................................... 23
II. The Decision Below is Incompatible with
Decisions of this Court which Clearly
Establish that a Federal Agency Cannot
Confer Power on Itself ................................... 28
A. An Agency Cannot Expand its Powers
Sua Sponte or by Private Agreement,
and Any Contract that Purports to do
so is Void in Relevant Respects ............... 28

vii
B. The Void Order Containing
F-Squared’s Waiver Cannot Bar
Consideration of the Trust’s Claims ........ 30
CONCLUSION ......................................................... 32

viii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIRST CIRCUIT, DATED DECEMBER 20,
2019 ..................................................................................1a
A P P E ND IX B — M E M OR AN DU M A N D
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
MASSACHUSETTS, FILED AUGUST 22,
2018 ................................................................................20a
APPENDIX C — RELEVANT STATUTORY
PROVISIONS ..............................................................46a

ix
TABLE OF AUTHORITIES
Page(s)
Cases

Bond v. United States,
564 U.S. 211 (2011) ............................................. 10

Boumediene v. Bush,
553 U.S. 723 (2008) ............................................. 19

C.I.R. v. Acker,
361 U.S. 87 (1959) ..................................... 5, 12, 19

Circuit City Stores, Inc. v. Adams,
532 U.S. 105 (2001) ............................................. 17

City of Arlington v. FCC,
569 U.S. 290 (2013) ............................................. 22

Commodity Futures Trading Comm’n v. Schor,
478 U.S. 833 (1986) ...................................... passim
Corley v. United States,
556 U.S. 303 (2009) ....................................... 15, 16

Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) ......................................... 17

Fed. Trade Comm’n v. Credit Bureau Ctr., Inc.,
937 F.3d 764 (7th Cir. 2019) ............................... 22

Freytag v. C.I.R.,
501 U.S. 868 (1991) ........................... 10, 25, 26, 27

Glidden Co. v. Zdanok,
370 U.S. 530 (1962) ............................................. 25

x

Great-West Life & Annuity Ins. Co. v. Knudson,
534 U.S. 204 (2002) ............................................. 18

INS v. Chadha,
462 U.S. 919 (1983) ............................................. 10

Kokesh v. SEC,

137 S. Ct. 1635 (2017) .................................. passim

Kuretski v. Comm’r,
755 F.3d 929 (D.C. Cir. 2014) ....................... 26, 27

L.P. Steuart & Bro., Inc. v. Bowles,
322 U.S. 398 (1944) ....................................... 11, 21

La. Pub. Serv. Comm’n v. FCC,
476 U.S. 355 (1986) ............................. 5, 12, 28, 29

Loving v. United States,
517 U.S. 748 (1996) ............................................. 10

Meghrig v. KFC W., Inc.,
516 U.S. 479 (1996) ............................................. 22

Nguyen v. United States,
539 U.S. 69 (2003) ......................................... 30, 31

Norris v. Schotten,
146 F.3d 314 (6th Cir. 1998) ............................... 27

Overbey v. Mayor of Baltimore,
930 F.3d 215 (4th Cir. 2019) ............................... 29

Pacemaker Diagnostic Clinic of Am., Inc. v.
Instromedix, Inc.,
725 F.2d 537 (9th Cir. 1984) ............................... 26

Russello v. United States,
464 U.S. 16 (1983) ............................................... 15

xi

Sackett v. EPA,
566 U.S. 120 (2012) ............................................. 32

Total Med. Mgmt., Inc. v. United States,
104 F.3d 1314 (Fed. Cir. 1997) ........................... 29

United States v. Evans,
333 U.S. 483 (1948) ............................................. 11

United States v. Martinez,
122 F.3d 421 (7th Cir. 1997) ............................... 27

United States v. U.S. Fidelity & Guar. Co.,
309 U.S. 506 (1940) ......................................... 6, 30

United States v. Underwood,
597 F.3d 661 (5th Cir. 2010) ............................... 27

United States v. Wiltberger,
18 U.S. 76 (1820) ................................................. 11

Welch v. United States,
136 S. Ct. 1257 (2016) ..................................... 5, 21

Whalen v. United States,
445 U.S. 684 (1980) ................................... 5, 11, 21

Whitman v. United States,
574 U.S. 1003, 135 S. Ct. 352 (2014) .................. 11

William Cramp & Sons Ship & Engine Bldg. Co.
v. Int’l Curtis Marine Turbine Co.,
228 U.S. 645 (1913) ............................................. 31

xii
Statutes and Other Authorities
U.S. Const., Art. III .................................. 2, 23, 24, 31
U.S. Const., Art. IV .................................................. 31
15 U.S.C. § 78u-2 .................................... 13, 14, 15, 17
15 U.S.C. § 80a-9 ............................................... passim
15 U.S.C. § 80b-3 ............................................... passim
15 U.S.C. § 7246 ....................................................... 19
17 C.F.R. § 201.240 ................................................ 1, 7
28 U.S.C. § 1254 ......................................................... 1
28 U.S.C. § 1291 ......................................................... 8
28 U.S.C. § 1331 ......................................................... 8
Investment Advisers Act § 203 .................................. 7
Investment Company Act § 9 ..................................... 7
33 Charles Alan Wright et al., Federal Practice
& Procedure § 8419 (2d ed. 2018) ....................... 12
Restatement (Third) of Restitution and Unjust
Enrichment § 51 .................................................. 18
Sup. Ct. R. 10(c) .......................................................... 6
Sup. Ct. R. 13.1 ........................................................... 1
Sup. Ct. R. 14.1(f) ....................................................... 1

1

OPINIONS BELOW
The First Circuit’s opinion (Appendix
(“App.”) 1a-19a) is reported at 945 F.3d 587. The
District Court’s memorandum and order
granting the SEC’s motion to dismiss (App. 20a45a) is reported at 327 F. Supp. 3d 287. The
SEC’s administrative order instituting and
settling the SEC enforcement proceeding against
F-Squared Investments, Inc. (“F-Squared”) is
unreported but is available on the District Court
docket (No. 1:17-cv-12103-FDS) at ECF No. 1-1.
JURISDICTION
The First Circuit entered its judgment on
December 20, 2019. The jurisdiction of this Court
is invoked pursuant to 28 U.S.C. § 1254(1). This
petition is timely filed. The initial deadline to file
this petition was March 19, 2020. See U.S. Sup.
Ct. R. 13.1. However, on that date, this Court
entered an order extending the deadline to file
any petition for a writ of certiorari due on or
after March 19, 2020 to 150 days from the date of
the lower court judgment.
RELEVANT STATUTORY AND REGULATORY
PROVISIONS
The following relevant statutory and
regulatory provisions are reproduced in the
Appendix (App. 46a-91a) in accordance with
Supreme Court Rule 14.1(f): 15 U.S.C. §§ 80a9(e) and 80b-3(j), and 17 C.F.R. § 201.240.

2
STATEMENT OF THE CASE
A.

Introduction

In its understandable and admirable zeal
to stamp out securities fraud, the SEC has
decided that the penalty amounts it was
statutorily authorized to collect were insufficient
to achieve its law-enforcement objectives of
punishment and deterrence. Rather than go to
Congress and ask for expanded powers, as the
Constitution contemplates in such
circumstances, the SEC engaged in self-help. It
chose to convert congressional authorization to
obtain disgorgement in limited circumstances for
the benefit of victims into penalties labeled
“disgorgement.” By doing so, the SEC chose to
disregard the will of Congress and substituted its
own judgment for the judgment of the
constitutional branch of government that created
it. Whatever its intentions, an administrative
agency of the United States must abide by the
laws that apply to it. It is the province of Article
III courts to make sure that it does.
F-Squared was an investment
management firm that marketed an investment
logarithm that provided investment-decision
(buy or sell) signals for use by investment
advisors. In its marketing, F-Squared
misrepresented how the investment strategies
were tested. F-Squared represented to its clients
that the strategy had been used for many years
in live trading. In fact, the investment strategy
was back-tested, i.e., its efficacy was determined
by analyzing how it would have performed had it
been used in live trading in the past.

3
Although the SEC appropriately
investigated and brought an administrative
enforcement action against F-Squared for this
conduct, the back-tested model was actually
successful, and no client lost money as a result.
The SEC enforcement action was resolved in
December 2014 by an administrative settlement
with F-Squared. F-Squared agreed, as part of the
settlement, to pay the SEC a total sum of $35
million in civil penalties ($5 million) and
purported disgorgement ($30 million). The entire
$35 million sum was then wired by F-Squared to
the U.S. Treasury; none of the money was used
to recompense victims. The SEC also extracted
from F-Squared, as it does in all its settlements,
an agreement to waive judicial review in any
court.
Because no investor was harmed by FSquared’s conduct, the only victims in this case
were F-Squared’s creditors, whose bills went
unpaid when F-Squared was forced to file
bankruptcy not long after wiring the $35 million
into the U.S. Treasury. The Trust filed this
lawsuit under the Administrative Procedure Act
(“APA”) challenging the SEC’s unauthorized
collection of “disgorgement” that operated as a
penalty under the analysis of Kokesh v. SEC,
137 S. Ct. 1635 (2017). Rather than defend its
extraction of disgorgement on the merits, the
SEC claimed that the Trust’s claims had been
waived by F-Squared. Both the District Court
and the First Circuit accepted the SEC’s waiver
argument. Those decisions of the lower courts
conflict with several decisions of this Court.
The federal securities laws permit the
SEC to obtain non-punitive disgorgement in

4
administrative proceedings, but only where
certain criteria are met. First, the disgorgement
order must be accompanied by an accounting—a
determination of the amount of illicit gain,
factoring in deductions for any expenses. Second,
the disgorged proceeds must be paid to the
investors who have been harmed by the
securities violation. The relevant statutory text
unambiguously demonstrates that the
disgorgement authorized in administrative
proceedings must be remedial, non-punitive
relief. The First Circuit acknowledged the
Trust’s reading of the statute, see 945 F.3d at
591-92, but did not address it in its decision.
The “disgorgement” extracted from FSquared by the SEC, however, constituted a
penalty. Because the money was not disbursed to
victims but was instead directed to the U.S.
Treasury, it was clearly imposed for lawenforcement purposes: to punish and deter. It
was, therefore, a penalty under Kokesh. See 137
S. Ct. at 1639, 1643-45.1 In other words, the SEC
determined that the appropriate monetary
penalty under the penalty provisions of the
federal securities laws was $5 million.
Nonetheless, it imposed an additional penalty of
$30 million under the “disgorgement” label.
This “disgorgement” penalty was
unauthorized. An agency has no power to impose
a penalty unless there is clear statutory
1

To be clear, the Trust is not alleging that there can
never be an appropriate use of disgorgement in SEC
administrative proceedings that comports with statutory
requirements. That did not happen in F-Squared’s case,
however.

5
authority to do so. See La. Pub. Serv. Comm’n v.
FCC, 476 U.S. 355, 374 (1986); C.I.R. v. Acker,
361 U.S. 87, 91 (1959). No statute authorizes the
SEC to impose penal disgorgement.
By imposing this unauthorized penalty,
the SEC arrogated to itself legislative power. The
creation of penalties is a legislative power that
belongs solely to Congress. See Whalen v. United
States, 445 U.S. 684, 689 (1980). Penal
disgorgement is not the product of congressional
action. It was instead created by a federal
agency. The SEC cannot confer power on itself,
see La. Pub. Serv. Comm’n, 476 U.S. at 374,
which is precisely what it attempted to do in its
agreement with F-Squared.
The SEC’s usurpation of Congress’s
legislative power to create penalties constitutes a
structural separation-of-powers violation. See
Welch v. United States, 136 S. Ct. 1257, 1268
(2016); Whalen, 445 U.S. at 689. Because the
Trust’s claim exposes a structural separation-ofpowers violation, the First Circuit’s waiver
holding is wrong: unlike claims based on
personal constitutional rights, structural
separation-of-powers violations cannot be waived
by the parties. See Commodity Futures Trading
Comm’n v. Schor, 478 U.S. 833, 850-51 (1986).
The need to guard against the arrogation by one
branch of the federal government of power
belonging to another branch is a constitutional
imperative that transcends any one case; private
parties cannot be expected to protect this
structural interest. For these reasons, this Court
has held that private parties like F-Squared
cannot waive or cure structural separation-ofpowers violations by consent or agreement.

6
For similar reasons, the order by which
the SEC extracted the disgorgement from FSquared along with F-Squared’s waiver of
judicial review is void in relevant respects.
Therefore, the Trust is not barred from
challenging the void portion of the order through
which the SEC extracted a penalty labeled
“disgorgement” from F-Squared. See United
States v. U.S. Fidelity & Guar. Co., 309 U.S. 506,
512 (1940).
The First Circuit’s waiver holding—the
sole ground of its decision—is inconsistent with
the above-cited decisions of this Court.
Therefore, this Court should grant certiorari to
review the important federal questions presented
by the SEC’s conduct in this case. See U.S. Sup.
Ct. R. 10(c).
B.

Factual Background

F-Squared was an investment
management firm headquartered in
Massachusetts. See Complaint, No. 1:17-cv12103-FDS, ECF No. 1 (“Compl.”), at ¶ 57. The
SEC charged, and F-Squared admitted, that FSquared sold an investment strategy by
misrepresenting its performance track record,
which was inflated, hypothetical, and backtested. Id. at ¶¶ 58, 62. Notwithstanding these
misrepresentations, however, F-Squared’s model
outperformed the market. Id. at ¶ 62. As a result,
F-Squared’s clients (who were other investment
managers) were not harmed; indeed, they
continued to trade more and more of their own
clients’ securities on the basis of F-Squared’s
trading signals, with positive results. Id.

7
By order dated December 22, 2014, the
SEC initiated and settled an SEC enforcement
proceeding against F-Squared for violations of
Sections 203(e) and 203(k) of the Investment
Advisers Act and Sections 9(b) and 9(f) of the
Investment Company Act. See id. at ¶ 58. After
deeming it to be “appropriate and in the public
interest,” No. 1:17-cv-12103-FDS, ECF No. 1-1,
at 1, the SEC determined that the appropriate
amount of civil penalties to be imposed on FSquared was $5 million, which F-Squared paid in
full and which is not at issue in this case. See
Compl. at ¶¶ 58-59.
The SEC also extracted an additional $30
million payment as purported “disgorgement,”
which bore no relation to investor losses because
none resulted from F-Squared’s conduct. See id.
at ¶¶ 58, 61. The SEC offered no explanation of
how it calculated this $30 million sum. With no
need to recompense any purported investor
victims, the SEC directed F-Squared to wire the
$30 million “disgorgement” payment to the U.S.
Treasury. See id. at ¶¶ 61, 63.
As required by Rule 240 of the SEC Rules
of Practice, F-Squared waived a host of
procedural rights as part of its offer of
settlement, including judicial review in any
court. See 17 C.F.R. § 201.240(b), (c)(4)(v); Offer
of Settlement, No. 1:17-cv-12103-FDS, ECF No.
23-1, at 2. F-Squared was forced to file for
bankruptcy less than eight months after making
the $30 million unlawful “disgorgement”
payment. See Compl., at ¶ 60. As a result of that
bankruptcy filing, the Trust’s clients—FSquared’s trade and other non-investor
creditors—were left with unpaid bills. The Trust

8
brought this action seeking the repayment of FSquared’s money extracted by the SEC as an
unlawful penalty under the label of
“disgorgement” as a means of compensating
these creditors.
C.

Procedural Background

The complaint in this case is a logical
outgrowth of Kokesh and its clear implications.
The Trust seeks to represent a class of entities
and individuals who were forced by the SEC to
make payments labeled “disgorgement” that
were in fact unauthorized, non-statutory,
additional penalties. See id. at ¶¶ 44-73. The
class-action complaint states claims under the
APA challenging the SEC’s policy and practice
(both historical and current) of obtaining
unlawful penalties labeled “disgorgement” and
without observing the relevant statutory
requirements. See id. at ¶¶ 13-40. The District
Court had subject-matter jurisdiction of the
Trust’s APA claims pursuant to 28 U.S.C. § 1331.
The SEC moved to dismiss the complaint,
and the District Court granted that motion.
(App. 20a-45a.) The Trust timely appealed to the
First Circuit, see 945 F.3d at 590, which had
jurisdiction over the appeal pursuant to 28
U.S.C. § 1291. The First Circuit affirmed the
dismissal of the Trust’s claim solely on the basis
that “[the Trust] failed to state a claim upon
which relief could be granted inasmuch as [FSquared] waived judicial review by any court.”
945 F.3d at 589; see also id. at 591. The Trust
timely filed the instant petition for writ of
certiorari.

9

ARGUMENT
I.

The SEC’s Action Amounts to a NonWaivable Structural Separation-of-Powers
Violation.

The sole ground of the First Circuit’s
affirmance of the dismissal of the Trust’s
complaint was that the complaint failed to state
a claim upon which relief may be granted
because F-Squared waived judicial review in any
court in connection with its settlement with the
SEC. See id. at 593-94. The court below reasoned
that the Trust’s claim did “not implicate a
structural separation-of-powers issue,” id. at 592,
and that, therefore, F-Squared’s waiver of
judicial review was valid and enforceable.
This decision is incompatible with
numerous decisions of this Court. It is clear from
this Court’s jurisprudence that obtaining extrastatutory penalties under the label of
“disgorgement” is an arrogation to the SEC of
exclusive legislative power: the power to create
penalties. An executive agency’s exercise of
legislative power reserved exclusively to
Congress by the Constitution represents a
structural separation-of-powers violation that
cannot be waived.

10
A.

The Decisions of this Court Demonstrate
that the SEC has Committed a Structural
Separation-of-Powers Violation by
Arrogating to Itself the Legislative Power
to Create Penalties.

The doctrine of separation of powers is a
foundational principle that is central to the very
structure of the federal government. See Freytag
v. C.I.R., 501 U.S. 868, 870 (1991) (“The leading
Framers of our Constitution viewed the principle
of separation of powers as the central guarantee
of a just government.”). The structural interests
served by the doctrine consequently belong to the
entire republic rather than individual litigants
who may or may not raise these issues
depending on their parochial interests and
litigation strategy. See id. at 880 (“The structural
interests protected by the Appointments Clause
are not those of any one branch of Government
but of the entire Republic.”); see also Bond v.
United States, 564 U.S. 211, 222 (2011)
(explaining that “[t]he structural principles
secured by the separation of powers protect the
individual as well” as “each branch of
government from incursion by the others”).
The main focus of this Court’s separationof-powers jurisprudence is “the danger of one
branch’s aggrandizing its power at the expense of
another branch.” Freytag, 501 U.S. at 878; see
also Loving v. United States, 517 U.S. 748, 757
(1996) (“[I]t remains a basic principle of our
constitutional scheme that one branch of the
Government may not intrude upon the central
prerogatives of another.”); INS v. Chadha, 462
U.S. 919, 951 (1983) (“The hydraulic pressure

11
inherent within each of the separate Branches to
exceed the outer limits of its power, even to
accomplish desirable objectives, must be
resisted.”). This case involves such an
impermissible inter-branch usurpation of power.
1.

The Power to Create Penalties is a
Legislative Power Belonging Solely
to Congress.

The creation of penalties is a legislative
power, residing wholly within Congress. See
Whalen, 445 U.S. at 689 (referring to the “basic
principle that within our federal constitutional
framework the legislative power, including the
power to define criminal offenses and to
prescribe the punishments to be imposed upon
those found guilty of them, resides wholly with
the Congress”); United States v. Evans, 333 U.S.
483, 486 (1948) (“In our system, so far at least as
concerns the federal powers, defining crimes and
fixing penalties are legislative, not
judicial, functions.”); L.P. Steuart & Bro., Inc. v.
Bowles, 322 U.S. 398, 404 (1944) (“[I]t is for
Congress to prescribe the penalties for the laws
which it writes.”); United States v. Wiltberger,
18 U.S. 76, 95 (1820) (Marshall, C.J.) (“[T]he
power of punishment is vested in the legislative,
not in the judicial department. It is the
legislature, not the Court, which is to define a
crime, and ordain its punishment.”); cf. Whitman
v. United States, 574 U.S. 1003, 135 S. Ct. 352,
354 (2014) (statement of Scalia, J., with whom
Thomas, J., joined, respecting denial of
certiorari) (“[O]nly the legislature may define
crimes and fix punishments. Congress cannot,

12
through ambiguity, effectively leave that
function to the courts—much less to the
administrative bureaucracy.”).
For this reason, one can be subjected to a
penalty if and only if a duly passed statute—the
manifestation of Congress’s legislative power—
plainly imposes that penalty. See Acker, 361 U.S.
at 91 (“The law is settled that penal statutes are
to be construed strictly, and that one is not to be
subjected to a penalty unless the words of the
statute plainly impose it.” (internal citations and
quotation marks omitted)). It logically follows
that if a statute enacted by Congress does not
plainly impose a certain penalty, an agency has
no authority to extract that penalty. See 33
Charles Alan Wright et al., Federal Practice
& Procedure § 8419, at 443 (2d ed. 2018) (“[A]n
agency’s power to impose penalties and penal
statutes is to be strictly construed, and an
agency may order a penalty only where the
words of the statute plainly impose it.”
(quotation marks omitted)); see generally La.
Pub. Serv. Comm’n, 476 U.S. at 374 (recognizing
that “an agency literally has no power to act”
absent conferral of power upon it by Congress).
2.

Congress has Enacted a Carefully
Constructed Remedial Framework
in the Securities Context that Does
Not Authorize Punitive
Disgorgement.

In the securities context, as it relates to
administrative proceedings initiated by the SEC,
Congress has carefully enacted a comprehensive
statutory scheme setting forth the SEC’s

13
enforcement tools, including civil penalties and
the separate relief of accounting-anddisgorgement orders. Congress authorized the
SEC to seek two types of relief for violations of
the securities laws: (1) monetary civil penalties,
subject to explicit statutory maximums, see 15
U.S.C. § 78u-2(a)-(c); id. § 80a-9(d); id. § 80b-3(i);
and (2) the remedial relief of accounting-anddisgorgement orders for the benefit of investors,
see id. § 78u-2(e); id. § 80a-9(e); id. § 80b-3(j)
(collectively, the “accounting-and-disgorgement
provision”).
The civil-penalty subsection of the statute,
which is entitled “Money penalties in
administrative proceedings,” id. § 80a-9(d); id.
§ 80b-3(i), sets forth the circumstances in which
the SEC “may impose a civil penalty.” Id. § 80a9(d)(1); id. § 80b-3(i)(1); see also id. § 78u-2(a).
The penalties provision also lays out a threetiered system for civil penalties: (1) penalties
under the first tier cannot exceed $5,000 per
violation for a natural person and $50,000 per
violation for any other person; (2) the maximums
for the second tier, which applies where the
violation “involved fraud, deceit, manipulation,
or deliberate or reckless disregard of a regulatory
requirement,” are increased to $50,000 for
natural persons and $250,000 for others; and (3)
third-tier penalties, which are available where
the requisite culpable conduct for tier two is
present and the violation resulted in substantial
losses to others or substantial pecuniary gain to
the respondent, increase to maximums of
$100,000 for natural persons and $500,000 for all
others. See id. § 80a-9(d)(2); id. § 80b-3(i)(2);see
also id. § 78u-2(b). Finally, the civil-penalty

14
subsection sets forth several factors to guide the
SEC’s determination of whether imposition of a
civil penalty is in the public interest. See id.
§ 80a-9(d)(3); id. § 80b-3(i)(3);see also id. § 78u2(c). Those public-interest factors include:
whether the conduct involved fraud, deceit,
manipulation, or deliberate, or reckless disregard
of a regulatory requirement; whether the
respondent has a history of previous
noncompliance with the securities laws; and the
need to deter the respondent and other persons
from committing similar violations. See id. § 80a9(d)(3); id. § 80b-3(i)(3).2
The separate accounting-anddisgorgement provision is labeled “Authority to
enter order requiring accounting and
disgorgement.” It provides:
In any proceeding in which the
Commission may impose a penalty
under this section, the Commission
may enter an order requiring
accounting and disgorgement,
including reasonable interest. The
Commission is authorized to adopt
rules, regulations, and orders
concerning payments to investors,
rates of interest, periods of accrual,
and such other matters as it deems
appropriate to implement this
subsection.
2

In F-Squared’s case, the SEC determined that it
was “appropriate and in the public interest” to impose a $5
million civil penalty on F-Squared. No. 1:17-cv-12103-FDS,
ECF No. 1-1, at 1; see id. at 14.

15

Id. § 80a-9(e); id. § 80b-3(j); see also id. § 78u-2(e)

(containing substantially similar language). The
unambiguous text and structure of this provision
make clear that Congress authorized “accounting
and disgorgement” only as remedial, nonpunitive relief.
The language of the authorization to
impose accounting and disgorgement
demonstrates that disgorgement is not a penalty.
To begin, Congress’s use of the different terms
“order requiring accounting-and-disgorgement”
and “penalty” in this statute was purposeful. See
Corley v. United States, 556 U.S. 303, 315 (2009)
(“Congress used both terms in [the statute] itself,
and ‘[w]e would not presume to ascribe this
difference to a simple mistake in draftsmanship’”
(quoting Russello v. United States, 464 U.S. 16,
23 (1983))). By differentiating between penalty
and disgorgement in this way, Congress
explicitly separated penal portions of the SEC’s
enforcement authorization from the remedial
portion.
Another clear indication that
disgorgement was not intended to be used as a
penalty is that the accounting-and-disgorgement
provision authorizes the SEC to obtain
disgorgement “[i]n any proceeding in which the
Commission may impose a penalty,” 15 U.S.C.
§ 80a-9(e) (emphasis added); id. § 80b-3(j)
(emphasis added), and regardless of the severity
of the respondent’s conduct. The civil-penalty
provision of the statute, on the other hand,
directs the SEC to consider a number of factors
that are tied directly to punitive purposes,
including the severity of the respondent’s

16
conduct; the respondent’s history of prior
noncompliance with the securities laws; and “the
need to deter [the respondent] and other
persons.” Id. § 80a-9(d)(3) (emphasis added); id.
§ 80b-3(i)(3) (emphasis added).
Two things follow from these clear
distinctions in the statutory text: one,
disgorgement is something different from a
penalty because it may be imposed in addition to
penalties and even if the SEC decides that
imposition of penalties would not be in the public
interest; and two, disgorgement is not meant to
serve a penal purpose because it is not meant to
be calibrated to achieve law-enforcement
objectives of punishment and deterrence as the
penalty provisions are. This is sensible; the
severity of harm to investors is, in many cases,
independent of the severity of a violation. Even a
negligent violation that does not call for severe
punishment could lead to substantial investor
harm. By granting authority to impose
accounting and disgorgement in any
administrative proceeding in which the SEC may
impose a penalty, Congress made clear that the
purpose of disgorgement is remedial, not an
infliction of additional punishment.
Furthermore, when both sentences of the
accounting-and-disgorgement provision are read
as a whole (as they are required to be read, see
Corley, 556 U.S. at 314 n.5), it is clear that
Congress authorized disgorgement only where
the disgorged proceeds will be used for harmed
investors. The first sentence—authorizing
“accounting and disgorgement”—is not selfexecuting because it provides no specificity as to
what form the accounting and disgorgement

17
should take or to whom accounting-anddisgorgement proceeds should be paid. It is the
second sentence that provides the necessary
specificity and thereby gives force to the first
sentence. The second sentence explicitly deals
with the implementation of the authority given
by the first sentence. “[T]o implement” the
accounting-and-disgorgement provision, the
second sentence authorizes the SEC to adopt
rules, regulations, and orders that relate to
remitting funds to victims: “payments to
investors.” 15 U.S.C. § 78u-2(e); id. § 80a-9(e); id.
§ 80b-3(j).3 The second sentence makes it clear
that this provision must be read as authorizing
the SEC to disburse disgorged funds to harmed
investors and nothing else.
Congress’s choice of the words “accounting
and disgorgement” further demonstrates that
this provision authorizes only remedial, non3

The remaining items listed in the second
sentence—rates of interest and periods of accrual—relate
to payments to investors: adding interest to the
recoverable amount for the benefit of investors so as to
recompense them for any income they could have earned
with the money that was wrongfully taken from them by
the defendant. And the general catchall phrase that
follows the list with the conjunction “and”—“and such
other matters as it deems appropriate to implement this
subsection”—must be similarly interpreted as relating to
payments to investors. See Epic Sys. Corp. v. Lewis, 138 S.
Ct. 1612, 1625 (2018) (“[W]here, as here, a more general
term follows more specific items in a list, the general term
is usually understood to ‘embrace only objects similar in
nature to those objects enumerated by the preceding
specific words.’” (quoting Circuit City Stores, Inc. v.
Adams, 532 U.S. 105, 115 (2001))).

18
punitive relief. Each of the words “accounting”
and “disgorgement” refers to a type of relief that
is wholly distinct from, and has different
purposes than, civil penalties. See Kokesh, 137
S. Ct. at 1640 (“[D]isgorgement is a form of
‘[r]estitution measured by the defendant’s
wrongful gain.’ Disgorgement requires that the
defendant give up ‘those gains . . . properly
attributable to the defendant’s interference with
the claimant’s legally protected rights.’” (citation
omitted) (quoting Restatement (Third) of
Restitution and Unjust Enrichment
(“Restatement”) § 51, cmt. a, at 204 (2010)));
Great-West Life & Annuity Ins. Co. v. Knudson,
534 U.S. 204, 214 n.2 (2002) (explaining that “an
accounting for profits” is “a form of equitable
restitution”).4

4

See also Restatement, supra, § 51(4) (“[T]he unjust
enrichment . . . is the net profit attributable to the
underlying wrong. The object of restitution in such cases is
to eliminate profit from wrongdoing while avoiding, so far
as possible, the imposition of a penalty. Restitution
remedies that pursue this object are often called
‘disgorgement’ or ‘accounting.’”); id., cmt. a (“Restitution
measured by the defendant’s wrongful gain is frequently
called ‘disgorgement.’ Other cases refer to an ‘accounting’
or an ‘accounting for profits.’ Whether or not these terms
are employed, the remedial issues in all cases of conscious
wrongdoing are the same. They concern the identification
and measurement of those gains to the defendant that
should be regarded as unjust enrichment, in that they are
properly attributable to the defendant’s interference with
the claimant’s legally protected rights.”); id., cmt. h
(“[M]aking the defendant liable in excess of [its] net gains[]
results in a punitive sanction that the law of restitution
normally attempts to avoid.”).

19
A separate section of the securities laws,
confirms the Trust’s interpretation of the
accounting-and-disgorgement provision. See
Boumediene v. Bush, 553 U.S. 723, 776 (2008)
(“When interpreting a statute, we examine
related provisions in other parts of the U.S.
Code.”). Section 7246 further cements the clear
dichotomy that Congress created between civil
penalties and accounting-and-disgorgement
orders. That section authorizes the SEC to add
the amount of a civil penalty to “a disgorgement
fund or other fund established for the benefit of
the victims” of the violation of the securities
laws. 15 U.S.C. § 7246(a). This section
demonstrates Congress’s understanding that
there will be circumstances when—by
application of proper disgorgement analysis—the
amount of illicit gain attributable to the
wrongdoing that may be disgorged will be
insufficient to address the harm to investors
adequately. To narrow any shortfall, Congress
allowed the SEC to use civil penalties collected
from a respondent to reduce the financial harm
to victims.
In sum, it is clear from the unambiguous
language and structure of the accounting-anddisgorgement provision and surrounding
provisions of the securities laws that the
accounting-and-disgorgement provision
authorizes only remedial, non-punitive relief.
That provision is not a second penalty provision,
and it clearly does not plainly authorize the SEC
to extract a penalty in addition to authorized
civil penalties. See Acker, 361 U.S. at 91.

20
3.

The SEC has Usurped the
Legislative Power to Create
Penalties by Using Disgorgement in
an Unauthorized Penal Fashion.

The SEC has disregarded this carefully
constructed congressional scheme and has
instead persisted in its practice of extracting an
unauthorized, duplicate penalty under the label
of “disgorgement.” See Kokesh, 137 S. Ct. at
1640 (“The [Securities Enforcement Remedies
and Penny Stock Reform] Act left the
Commission with a full panoply of enforcement
tools: It may promulgate rules, investigate
violations of those rules and the securities laws
generally, and seek monetary penalties and
injunctive relief for those violations. In the years
since the Act, however, the Commission has
continued its practice of seeking disgorgement in
enforcement proceedings.”).
In Kokesh, this Court unanimously held
that what the SEC labels as “disgorgement” is
not remedial and instead constitutes a penalty
because: (1) the SEC imposes “disgorgement” for
the punitive purpose of deterrence; (2) the SEC
orders “disgorgement” without attempting to
trace the ill-gotten gains or even to quantify the
amount of any illicit profit; and (3) “SEC
disgorgement is not compensatory,” as
demonstrated by the SEC’s practice of disbursing
disgorged funds into the U.S. Treasury instead of
recompensing harmed investors. See id. at 1639,
1642, 1643-45. All three of these penal aspects of
SEC disgorgement apply to the amount that the
SEC extracted from F-Squared.

21
What the SEC has done, then, is to
disregard clearly expressed congressional will in
favor of its own policy choices about what
enforcement tools were necessary for effective
policing of compliance with the federal securities
laws. This constitutes a quintessential structural
separation-of-powers violation: an agency has
disregarded the language of the statute and
usurped legislative power—the power to create
penalties—by using the “disgorgement” label to
mask the extraction of a duplicative penalty that
is not plainly imposed by the statutes Congress
enacted. See Whalen, 445 U.S. at 689 (“If a
federal court exceeds its own authority by
imposing multiple punishments not authorized
by Congress, it violates not only the specific
guarantee against double jeopardy, but also the
constitutional principle of separation of powers
in a manner that trenches particularly harshly
on individual liberty.”); see also Welch, 136 S. Ct.
at 1268 (“[T]he separation of powers prohibits a
court from imposing criminal punishment
beyond what Congress meant to enact. But a
court likewise is prohibited from imposing
criminal punishment beyond what Congress in
fact has enacted by a valid law. In either case a
court lacks the power to exact a penalty that has
not been authorized by any valid criminal
statute.” (internal citation and parenthetical
omitted)); L.P. Steuart, 322 U.S. at 404 (“It
would transcend both the judicial and the
administrative function to make additions to

22
those [penalties] which Congress has placed
behind a statute.”).5
The First Circuit’s failure to recognize the
structural separation-of-powers violation in this
case fatally undermines its waiver holding.

5

Contrary to the suggestion of the opinion below,

see 945 F.3d at 593, this Court’s decision in City of
Arlington v. FCC, 569 U.S. 290 (2013), is inapposite. The
Court in City of Arlington was determining whether an
agency’s interpretation of ambiguous statutory language
concerning the scope of the agency’s authority was entitled
to Chevron deference. See City of Arlington, 569 U.S. at
297-98. Put differently, the question in that case was
whether Congress, in fact, deliberately gave the agency the
leeway to expand its regulatory scope as necessary to
implement Congressional authorization. Both the majority
opinion and the dissent in that case recognized that, where
Congress has spoken in clear and unambiguous terms, that
is the end of the matter. See id. at 296; id. at 314. Such is
the case here, where the unambiguous language of the
securities laws demonstrates that the accounting-anddisgorgement provision authorizes only remedial, nonpunitive relief. Cf. Fed. Trade Comm’n v. Credit Bureau
Ctr., Inc., 937 F.3d 764, 767 (7th Cir. 2019) (applying this
Court’s decision in Meghrig v. KFC W., Inc., 516 U.S. 479,
487-88 (1996), to overrule circuit precedent and to hold
that a statute’s express and unambiguous remedial scheme
foreclosed the agency’s interpretation of an implied
restitutionary remedy). City of Arlington therefore has no
application here. That case also did not involve a
structural separation-of-powers violation like the one
present here.

23
B.

Structural Separation-of-Powers
Violations Like the One in this Case
Cannot be Waived.

Although parties can waive personal
constitutional rights, they cannot waive
structural separation-of-powers violations
because the separation-of-powers doctrine serves
structural interests that private parties cannot
be expected to protect. This Court’s decision in
Schor demonstrates this point.
In that case, Schor commenced
proceedings before the Commodity Futures
Trading Commission (“CFTC”) and litigated his
claims and the defendant’s counterclaim to
judgment before an administrative law judge.
478 U.S. at 837-38. After an adverse decision,
Schor challenged—for the first time—the CFTC’s
authority to adjudicate the counterclaim, id. at
838, and contended that the CFTC’s adjudication
of the counterclaim violated separation-of-powers
principles, see id. at 847.
This Court first determined that Schor
waived his personal right to a trial before an
Article III court by proceeding to judgment in the
CFTC. See id. at 849 (“Schor indisputably waived
any right he may have possessed to the full trial
of Conti’s counterclaim before an Article
III court. Schor expressly demanded that Conti
proceed on its counterclaim in the reparations
proceeding rather than before the District Court
. . . and was content to have the entire dispute
settled in the forum he had selected until the
ALJ ruled against him on all counts; it was only
after the ALJ rendered a decision to which he

24
objected that Schor raised any challenge to the
CFTC’s consideration of Conti’s counterclaim.”).
This Court nonetheless considered the
structural separation-of-powers claim on the
merits, notwithstanding Schor’s undeniable
waiver of his personal Article III claim. See id. at
850-51. This Court explained:
Article III, § 1, not only preserves to
litigants their interest in an
impartial and independent federal
adjudication of claims within the
judicial power of the United States,
but also serves as an inseparable
element of the constitutional system
of checks and balances. Article III,
§ 1 safeguards the role of the
Judicial Branch in our tripartite
system by barring congressional
attempts to transfer jurisdiction [to
non-Article III tribunals] for the
purpose of emasculating
constitutional courts, and thereby
preventing the encroachment or
aggrandizement of one branch at
the expense of the other. To the
extent that this structural principle
is implicated in a given case, the
parties cannot by consent cure the
constitutional difficulty for the
same reason that the parties by
consent cannot confer on federal
courts subject-matter jurisdiction
beyond the limitations imposed by
Article III, § 2. When these Article
III limitations are at issue, notions

25
of consent and waiver cannot be
dispositive because the limitations
serve institutional interests that the
parties cannot be expected to
protect.

Id. (internal citations and quotation marks

omitted).
Along similar lines, the petitioners in
Freytag specifically consented to the assignment
of their case to a special trial judge of the Tax
Court. 501 U.S. at 871. On appeal from an
adverse decision, the petitioners argued that the
appointment of the special trial judge violated
the Appointments Clause. Id. at 872. The Fifth
Circuit refused to consider this argument,
concluding that petitioners had waived any
constitutional challenge to the appointment of
the special trial judge by consenting to a trial
before that judge. Id.
Notwithstanding this waiver issue, this
Court granted certiorari “to resolve the
important questions the litigation raise[d] about
the Constitution’s structural separation of
powers.” Id. at 873. And, despite the petitioners’
consent to the trial before the special trial judge,
this Court considered the separation-of-powers
claim on the merits, explaining that “the
disruption to sound appellate process entailed by
entertaining objections not raised below does not
always overcome what Justice Harlan called ‘the
strong interest of the federal judiciary in
maintaining the constitutional plan of separation
of powers.’” Id. at 879 (quoting Glidden Co. v.
Zdanok, 370 U.S. 530, 536 (1962) (plurality op.));
see also Glidden, 370 U.S. at 536 (holding that

26
“the disruption to sound appellate process
entailed by entertaining objections not raised
below . . . is plainly insufficient to overcome the
strong interest of the federal judiciary in
maintaining the constitutional plan of separation
of powers” (emphasis added)). This Court in
Freytag also gave no deference to the executive
branch’s assessment that there had been no
encroachment by the legislative branch because
“[n]either Congress nor the Executive can agree
to waive this structural protection. . . . The
structural interests protected by the
Appointments Clause are not those of any one
branch of Government but of the entire
Republic.” 501 U.S. at 880.
Additionally, both before and after Schor,
circuit courts around the country have
recognized the distinction between personal
rights, which can be waived, and structural
separation-of-powers violations, which cannot.
See, e.g., Kuretski v. Comm’r, 755 F.3d 929, 93738 (D.C. Cir. 2014) (“Because the Kuretskis raise
a structural claim in addition to any ‘personal’
claim akin to the one asserted in McElrath, they
did not waive their structural challenge to the
Tax Court proceedings by seeking relief in that
court.”); Pacemaker Diagnostic Clinic of Am., Inc.
v. Instromedix, Inc., 725 F.2d 537, 543-44 (9th
Cir. 1984) (Kennedy, J.) (en banc) (“The
component of the separation of powers rule that
protects the integrity of the constitutional
structure, as distinct from the component that
protects the rights of the litigants, cannot be
waived by the parties . . . . On its most
fundamental plane, the separation of powers
doctrine protects the whole constitutional

27
structure by requiring that each branch retain
its essential powers and independence. Statutes
or governmental actions which violate the
separation of powers doctrine in its systemic
aspect should be invalidated, as a general rule,
despite waiver by affected private parties.”
(citations omitted)).6
Therefore, F-Squared’s purported waiver
cannot shield this structural separation-ofpowers claim from judicial inquiry. See Schor,
478 U.S. at 837-38; Kuretski, 755 F.3d at 937-38.
Indeed, by relying on principles of waiver to
foreclose judicial review of the SEC’s structural
separation-of-powers violation, the First Circuit
did precisely what Schor and its progeny forbid:
using concepts of consent or waiver to cure a
structural separation-of-powers violation.
The same considerations that were
present in Freytag and Schor warrant the grant
of certiorari in this case, which raises an
important question concerning the consequences
6

See also United States v. Underwood, 597 F.3d 661,
672 (5th Cir. 2010) (distinguishing a litigant’s “personal
right to have an Article III judge conduct [a] plea
proceeding,” which personal right can be waived, from
“Article III structural protections,” which “ensure respect
for . . . separation-of-powers principles” and “may not be
waived”); Norris v. Schotten, 146 F.3d 314, 325 (6th Cir.
1998) (explaining that “the structural interest of
maintaining an independent judiciary within the
constitutional scheme of tripartite government” is not
subject to waiver by private litigants); United States v.
Martinez, 122 F.3d 421, 425 (7th Cir. 1997) (“that part of
[the] separation of powers doctrine that protects the
integrity of the constitutional structure cannot be waived
by the parties”).

28
of the structural separation-of-powers violation
that occurs where an agency usurps Congress’s
core legislative function to create penalties. This
usurpation of legislative power by the SEC
transcends F-Squared’s case and disrupts the
constitutional structure of the federal
government.
II.

The Decision Below is Incompatible with
Decisions of this Court which Clearly
Establish that a Federal Agency Cannot
Confer Power on Itself.

The First Circuit did not address the
Trust’s voidness argument. That argument, too,
presents an important question of federal law.
An agency cannot confer power on itself, which is
precisely what the SEC did in its settlement with
F-Squared. That contracted-for power grab is
void, as is the relevant portion of the order that
the SEC entered memorializing that void
settlement. The Trust is therefore not barred
from challenging the void portion of the order.
A.

An Agency Cannot Expand its Powers Sua
Sponte or by Private Agreement, and Any
Contract that Purports to do so is Void in
Relevant Respects.

“[A]n agency literally has no power to act
. . . unless and until Congress confers power
upon it.” La. Pub. Serv. Comm’n, 476 U.S. at 374.
It is, therefore, settled that an agency cannot
confer power on itself. See id. (“[W]e simply
cannot accept an argument that [a federal
agency] may nevertheless take action which it

29
thinks will best effectuate a federal policy. An
agency may not confer power upon itself. To
permit an agency to expand its power in the face
of a congressional limitation on its jurisdiction
would be to grant to the agency power to override
Congress. This we are both unwilling and unable
to do.”).
In this case, however, the SEC has done
just that. It has overridden the clearly expressed
will of Congress with respect to its enforcement
tools, see Kokesh, 137 S. Ct. at 1640, and
conferred on itself the legislative power to create
an additional, unauthorized penalty. The SEC’s
attempt to confer power on itself by agreement
with F-Squared, therefore, is void. See La. Pub.
Serv. Comm’n, 476 U.S. at 374; see also Total
Med. Mgmt., Inc. v. United States, 104 F.3d
1314, 1319 (Fed. Cir. 1997) (“A contract [with the
government] which is ‘plainly illegal’ is a nullity
and void ab initio . . . . A contract is ‘plainly
illegal’ when made contrary to statute or
regulation . . . .” (citation omitted)). Just as the
SEC could not insulate itself from public scrutiny
by extracting a waiver of a respondent’s First
Amendment rights through a gag order in a
settlement agreement, see Overbey v. Mayor of
Baltimore, 930 F.3d 215, 222, 224-25 (4th Cir.
2019) (concluding that non-disparagement clause
in litigant’s settlement with government was
unenforceable and void because it amounted to
an impermissible waiver of litigant’s First
Amendment rights), it similarly cannot shield
itself from judicial review of the conferral onto
itself of the power to collect an additional penalty
through a settlement agreement.

30
B.

The Void Order Containing F-Squared’s
Waiver Cannot Bar Consideration of the
Trust’s Claims.

Because the SEC’s agreement with FSquared and the order memorializing that
agreement are void in relevant part, the Trust’s
claims are not barred by the waiver contained in
that settlement. This Court’s decision in U.S.
Fidelity & Guaranty is instructive in this regard.
There, the federal court in the first action issued
a money judgment against the United States.
309 U.S. at 510. The United States did not seek
review of that judgment, and it became final. Id.
In a subsequent case, the United States
argued that the prior judgment “was void . . .
because the court was ‘without jurisdiction to
render the judgment.’” Id. at 511. The second
court rejected that argument, concluding that
the United States was barred from collaterally
attacking a final judgment. Id.
This Court disagreed, holding that “the
[first] judgment [was] void in so far as it
undertakes to fix a credit against [the United
States]” because the United States was protected
by sovereign immunity absent congressional
authorization for suit against the Government
and “[n]o statutory authority granted jurisdiction
to the [first] court to adjudicate a cross-claim
against the United States.” Id. at 512.7
7

Along similar lines, in Nguyen v. United States,
539 U.S. 69, 71, 73, 80-81 (2003), this Court vacated
decisions of an improperly constituted panel of the Court of
Appeals notwithstanding that the petitioners failed to
raise the issue until the filing of their petitions for writs of

31
So too here. Because the SEC could not
validly confer authority on itself by agreement
with F-Squared, the portion of the order
pursuant to which it collected unauthorized
disgorgement is void, as is the waiver of judicial
review in relevant respects. The Trust’s claims,
certiorari. The appellate panel in Nguyen consisted of two
Article III judges and one Article IV judge, the Chief Judge
of the District Court for the Northern Mariana Islands. Id.
at 71-72. The appointment of the Article IV judge was
unauthorized. Id. at 76. Although they did not challenge
the composition of the panel at the court-of-appeals level,
the petitioners filed petitions for writs of certiorari “raising
the question whether the judgment of the Court of Appeals
is invalid because of the participation of a non-Article
III judge on the panel.” Id. at 73. In vacating the decisions
of the improperly constituted panel, this Court rejected the
government’s reliance on the petitioners’ failure to raise
the issue earlier, explaining:
[T]o ignore the violation of the designation
statute in these cases would incorrectly
suggest that some action (or inaction) on
petitioners’ part could create authority
Congress has quite carefully withheld.
Even if the parties had expressly stipulated
to the participation of a non-Article III
judge in the consideration of their appeals,
no matter how distinguished and well
qualified the judge might be, such a
stipulation would not have cured the plain
defect in the composition of the panel.

Id. at 80-81; see also William Cramp & Sons Ship &
Engine Bldg. Co. v. Int’l Curtis Marine Turbine Co., 228
U.S. 645, 650 (1913) (granting writ of certiorari and
vacating decision of improperly constituted court of
appeals notwithstanding that petitioner consented to
improper constitution of court of appeals).

32
therefore, are not barred by F-Squared’s waiver
of judicial review contained in that void order.
Cf. Sackett v. EPA, 566 U.S. 120, 131 (2012)
(rejecting agency argument that would “enable
the strong-arming of regulated parties into
‘voluntary compliance’ without the opportunity
for judicial review”).
CONCLUSION
Distilled to its essence, the SEC’s position
throughout these proceedings is that it has an
unreviewable power to do whatever it wants
regardless of absence of congressional
authorization so long as it can force a potential
respondent to agree not to challenge its unlawful
actions. This position is fundamentally at odds
with the principles on which the federal
government is based and has implications that
will extend far beyond this case.
By attempting to confer upon itself
legislative power to create penalties not given to
it by Congress, the SEC committed a structural
separation-of-powers violation that can and must
be addressed by the judiciary. The prior decisions
of this Court demonstrate that the SEC and the
First Circuit are wrong in their conclusion that
F-Squared validly waived review of the SEC’s
unlawful usurpation of legislative power of
Congress to impose penalties labeled
“disgorgement” in administrative proceedings,
which are in addition to and in excess of the
monetary penalties imposed by the SEC under
the applicable penalty provisions. This Court
should, therefore, grant this petition for writ of
certiorari to review the decision below and

33
assure that the First Circuit’s precedent is
consistent with this Court’s earlier precedent.
Respectfully submitted,
WILLIAM R. BALDIGA
JOSHUA P. DUNN
BROWN RUDNICK LLP
One Financial Center
Boston, MA 02111
ASHLEY L. BAYNHAM
BROWN RUDNICK LLP
Seven Times Square
New York, NY 10036
May 18, 2020

ALEX LIPMAN
LIPMAN LAW PLLC
49 West 29th Street
Suite 303
New York, NY 10001
(212) 401-0070
alexlipman@lipmanpllc.com
(Counsel of Record)

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIRST
CIRCUIT, DATED DECEMBER 20, 2019
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 18-2043
CRAIG R. JALBERT, in his capacity as Trustee of
the F2 Liquidating Trust, on behalf of himself and all
others similarly situated,
Plaintiff-Appellant,
v.
U.S. SECURITIES AND
EXCHANGE COMMISSION,
Defendant-Appellee.
December 20, 2019, Decided
APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(Hon. F. Dennis Saylor IV, U.S. District Judge)
Before
Torruella, Thompson, and Kayatta,
Circuit Judges.

2a
Appendix A
TORRUELLA, Circuit Judge. Plaintiff-appellant
Craig R. Jalbert (“Jalbert”), in his capacity as trustee
for the F2 Liquidating Trust, appeals the district court’s
order granting the Securities and Exchange Commission’s
(“SEC”) motion to dismiss his complaint for lack of
subject matter jurisdiction and failure to state a claim.
The district court determined that the right to judicial
review of the SEC order at issue had been waived as part
of a settlement between the SEC and former investment
advisory firm F-Squared Investments, Inc. (“F-Squared”).
The district court also held that, in any event, Jalbert’s
claims were only reviewable within the SEC’s exclusive
statutory review structure, which does not involve the
federal district courts. After careful consideration, we
affirm on the ground that F-Squared failed to state a
claim upon which relief could be granted inasmuch as it
waived judicial review by any court.
I. Background
A. Factual Background
F-Squared was an SEC-registered investment
adviser firm headquartered in Wellesley, Massachusetts.
It served clients in the advisor, institutional, retail, and
retirement markets. At some unspecified point, the SEC
began investigating F-Squared for violations of federal
securities laws.
On December 4, 2014, with the threat of administrative
and cease-and-desist proceedings looming, F-Squared
executed an Offer of Settlement pursuant to Rule 240(a) of

3a
Appendix A
the Rules of Practice of the SEC, 17 C.F.R. § 201.240(a) (the
“Offer”). The Offer included the following language: “By
submitting this Offer, Respondent hereby acknowledges
its waiver of those rights specified in Rules 240(c)(4) and
(5) [17 C.F.R. § 201.240(c)(4) and (5)] of the Commission’s
Rules of Practice.” Rule 240(c)(4) provides, as relevant to
this appeal, that “[b]y submitting an offer of settlement,
the person making the offer waives, subject to acceptance
of the offer . . . [j]udicial review by any court.” 17 C.F.R.
§ 201.240(c)(4).
The SEC accepted the Offer and settled w ith
F-Squared on December 22, 2014, through the entry of
an “Order Instituting Administrative and Cease-andDesist Proceedings” (the “Order”), to which F-Squared
consented. Under the terms of the Order, F-Squared
admitted that, between April 2001 and September 2008,
advertising materials for one of its investment strategies
included statements based on the inaccurate compilation
of performance and historical data which improved
and inf lated the strategy’s historical performance.
That conduct, F-Squared accepted, violated federal
securities laws. F-Squared agreed to cease and desist
from committing further securities-laws violations and to
undertake certain compliance measures. The Order also
required F-Squared to pay $30 million in disgorgement
and a $5 million civil money penalty to the United States
Treasury. As agreed, F-Squared transferred $35 million
directly into the Treasury.
In July 2015, F-Squared filed for bankruptcy. The F2
Liquidating Trust was established during the bankruptcy

4a
Appendix A
proceedings to recover on behalf of F-Squared as its
successor-in-interest. The bankruptcy court appointed
Jalbert as the trustee.
B. Procedural History
On October 26, 2017, Jalbert filed a complaint in the
U.S. District Court for the District of Massachusetts
against the SEC purporting to represent the F2
Liquidating Trust and “all other individuals and entities
similarly situated” who had “money collected from them
by the SEC as ‘disgorgement’ without statutory authority
or in excess of statutory authority” during the six years
prior to the filing of the complaint. Jalbert asserted
two claims under the Administrative Procedure Act
(“APA”), 5 U.S.C. §§ 551 et seq., alleging that: (1) in light
of the then-recent Supreme Court opinion in Kokesh v.
SEC, 137 S. Ct. 1635, 198 L. Ed. 2d 86 (2017),1 the SEC
1. Kokesh held that, in the securities-enforcement context,
disgorgement is a penalty within the meaning of the five-year
limitations period under 28 U.S.C. § 2462 where it is ordered to
punish and deter violations of securities laws and is paid directly to
the United States Treasury. 137 S. Ct. at 1639, 1643-44. The Court
concluded, therefore, that disgorgement actions must be commenced
within five years of the claim’s accrual. Id. at 1639. The Kokesh Court,
however, pointed out that its decision was narrow, for purposes of
only the statute of limitations, and was not meant to undermine
disgorgement in SEC enforcement actions in federal court. See id.
at 1642 n.3 (“Nothing in this opinion should be interpreted as an
opinion on whether courts possess authority to order disgorgement
in SEC enforcement proceedings or on whether courts have properly
applied disgorgement principles in this context[.] The sole question
presented in this case is whether disgorgement, as applied in SEC

5a
Appendix A
“exceeded its statutory authority by seeking and obtaining
disgorgement from F-Squared and the similarly situated
members of the Proposed Class as a separate monetary
penalty” in both administrative proceedings and federal
court actions and (2) the SEC “failed to observe the
procedural requirements” of federal securities law by not
obtaining an accounting of profits allegedly acquired as a
result of wrongdoing before ordering disgorgement. The
complaint sought a declaration that the SEC’s collection
of disgorgement was unlawful pursuant to 5 U.S.C. § 706;
the setting aside of the $30 million disgorgement paid by
F-Squared under the Order; and a refund of that payment,
as well as similar refunds for the putative class members.
On April 4, 2018, the SEC filed a motion to dismiss the
complaint pursuant to Federal Rules of Civil Procedure
12(b)(1) and (6). On August 22, 2018, the district court
entered a memorandum and order granting the SEC’s
motion to dismiss. Jalbert v. SEC, 327 F. Supp. 3d 287 (D.
Mass. 2018). The court determined that it lacked subject
matter jurisdiction because Congress vested the courts of
appeals with exclusive jurisdiction over challenges to SEC
orders. Id. at 296-97, 299-300. It also held that Jalbert had
failed to state a claim upon which relief could be granted
because “F-Squared, as part of the settlement, clearly and
unambiguously waived the right to judicial review by any
enforcement actions, is subject to § 2462’s limitations period.”). We
note that the Supreme Court recently granted certiorari in a case
which presents the question that was expressly avoided in footnote
3 of Kokesh. See SEC v. Liu, 754 F. App’x 505 (9th Cir. 2018), cert.
granted, 140 S. Ct. 451, 205 L. Ed. 2d 265, 2019 WL 5659111 (U.S.
Nov. 1, 2019) (No. 18-1501).

6a
Appendix A
court.” Id. at 295. Jalbert then filed this timely appeal of
the district court’s dismissal.
II. Discussion
We review a district court’s dismissal for lack of
subject matter jurisdiction and for failure to state a claim
de novo, construing the complaint “liberally” and treating
“all well-pleaded facts as true.” Aurelius Capital Master,
Ltd. v. Commonwealth of P.R. (In re Fin. Oversight &
Mgmt. Bd. for P.R.), 919 F.3d 638, 644 (1st Cir. 2019)
(quoting Town of Barnstable v. O’Connor, 786 F.3d 130,
138 (1st Cir. 2015), and citing Newman v. Lehman Bros.
Holdings Inc., 901 F.3d 19, 24 (1st Cir. 2018)). We accord
Jalbert “the benefit of all reasonable inferences.” Town
of Barnstable, 786 F.3d at 138 (quoting Murphy v. United
States, 45 F.3d 520, 522 (1st Cir. 1995)). Nevertheless, the
complaint must allege “a plausible entitlement to relief.”
Decotiis v. Whittemore, 635 F.3d 22, 29 (1st Cir. 2011)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 559,
127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
Jalbert’s big-ticket argument is that in light of the
Supreme Court’s decision in Kokesh — which holds that
disgorgement ordered in civil enforcement proceedings
constitutes a “penalty” subject to the five-year statute
of limitations set forth in 28 U.S.C. § 2462, 2 137 S. Ct. at
2. That statute provides, “[e]xcept as otherwise provided by
Act of Congress, an action, suit or proceeding for the enforcement
of any civil fine, penalty, or forfeiture, pecuniary or otherwise, shall
not be entertained unless commenced within five years from the date
when the claim first accrued . . . .” 28 U.S.C. § 2462.

7a
Appendix A
1639 — the SEC’s $30 million disgorgement order against
F-Squared was unauthorized under the statutes governing
SEC disgorgement because it was a penalty and not a
remedial, compensatory charge. Jalbert contends that
the SEC intended F-Squared’s disgorgement as a penalty
because, like in Kokesh, it was ordered to punish and deter
conduct, and the proceeds were paid directly into the
Treasury rather than returned to the injured investors.
But as the district court correctly concluded, we do not
need to delve into the merits of these arguments because
they are not properly before us.
The SEC’s Rules of Practice allow “[a]ny person who
is notified that a proceeding may or will be instituted
against him or her, or any party to a proceeding already
instituted [to] propose in writing an offer of settlement.”
17 C.F.R. § 201.240(a). The Rules also require an offer of
settlement to “recite or incorporate as a part of the offer
the provisions of paragraphs (c)(4) and (5) of this section,”
17 C.F.R. § 201.240(b), which, as relevant to this appeal,
include the waiver, subject to the acceptance of the offer,
of “[j]udicial review by any court,” § 201.240(c)(4)(v).
F-Squared voluntarily executed such an offer to settle
with the SEC. In compliance with 17 C.F.R. § 201.240(b),
the Offer included an acknowledgement of F-Squared’s
“waiver of those rights specified in Rules 240(c)(4) and
(5) [17 C.F.R. § 201.240(c)(4) and (5)] of the Commission’s
Rules of Practice.” Thus, as part of the Offer, F-Squared
knowingly and voluntarily agreed to waive judicial review
of the ensuing order if the SEC accepted it. In due course,
the SEC accepted the Offer in its December 22, 2014

8a
Appendix A
Order. See 17 C.F.R. § 201.240(c)(7) (“Final acceptance of
any offer of settlement will occur only upon the issuance of
findings and an order by the Commission.”). Accordingly,
the district court properly determined that F-Squared’s
“clear[] and unambiguous[]” waiver barred the court’s
consideration of Jalbert’s claims on the merits. Jalbert, 327
F. Supp. 3d at 295. While Jalbert posits several arguments
to the contrary on appeal, none are persuasive.
First, Jalbert argues that the SEC’s “longstanding
practice of obtaining additional, extra-statutory penalties”
disguised as “disgorgement” constitutes a structural
separation-of-powers violation that cannot be waived.
Relying on Kokesh, Jalbert’s argument assumes that
the SEC exceeded its statutory authority in ordering
disgorgement that is, according to Jalbert, punitive
and unauthorized, which alone is enough to implicate
separation-of-powers principles. But the Kokesh Court
explicitly stated that “[n]othing in this opinion should
be interpreted as an opinion on whether courts possess
authority to order disgorgement in SEC enforcement
proceedings or on whether courts have properly applied
disgorgement principles in this context,” and it limited
its holding to the applicability of the five-year limitations
period under 28 U.S.C. § 2462 to the SEC’s requests for
disgorgement. Kokesh, 137 S. Ct. at 1642 n.3; see also id.
at 1640-41. Indeed, with the enactment of the Securities
Enforcement Remedies and Penny Stock Reform Act of
1990, Pub. L. No. 101-429, 104 Stat. 931, Congress explicitly
authorized the SEC to enter orders requiring “accounting
and disgorgement” in administrative and cease-and-desist
proceedings. See 15 U.S.C. §§ 77h-1(e), 78u-3(e), 80a-9(e)

9a
Appendix A
and (f)(5), 80b-3(j) and (k)(5); see also S. Rep. No. 101-337,
at 8, 16 (1990) (“The legislation authorizes the SEC to seek
civil money penalties in court proceedings and to impose
penalties and order disgorgement in administrative
proceedings for violations of the federal securities
laws. . . . The Committee believes . . . that the SEC
should have the express authority to order disgorgement
in its administrative proceedings in order to ensure
that respondents in administrative proceedings do not
retain ill-gotten gains.”). Notably, Kokesh does not even
mention the application of disgorgement in the context of
administrative or cease-and-desist proceedings. Instead,
it addresses disgorgement solely in the civil enforcement
context within the meaning of section 2462. Kokesh, 137 S.
Ct. at 1639. Thus, the SEC’s statutory authority to request
disgorgement in administrative proceedings is seemingly
undisturbed by Kokesh.
Jalbert does not challenge the statutes granting that
authority. Rather, Jalbert’s structural separation-ofpowers argument is based on his contention that the SEC’s
disgorgement practices exceed the bounds of the SEC’s
statutory authority. But this argument does not implicate
a structural separation-of-powers issue. We have held that
“the doctrine of separated powers serves to eliminate
arrangements that threaten to permit one branch either to
aggrandize its power or to encroach on functions reserved
for another branch.” United States v. Hilario, 218 F.3d 19,
26 (1st Cir. 2000) (citing Mistretta v. United States, 488
U.S. 361, 381-82, 109 S. Ct. 647, 102 L. Ed. 2d 714 (1989)).
“Separation-of-powers principles are intended, in part, to
protect each branch of government from incursion by the

10a
Appendix A
others.” Bond v. United States, 564 U.S. 211, 222, 131 S.
Ct. 2355, 180 L. Ed. 2d 269 (2011). Even if Jalbert were
correct that the SEC acted beyond its statutory powers in
interpreting the accounting and disgorgement provision
and seeking disgorgement in a “punitive fashion,” this is
not a case in which the “usurp[ation of] the prerogatives
of another branch of government” would be implicated.
Hilario, 218 F.3d at 27. Further, there is no “accret[ion] to
a single [b]ranch [of] powers more appropriately diffused
among separate [b]ranches,” nor has the “authority and
independence” of the other branches been undermined.
Mistretta, 488 U.S. at 382; see also Hilario, 218 F.3d at 26.3
As the district court noted, Jalbert’s claim that the
SEC was acting outside the scope of its statutory authority
is, at best, viewed as an assertion that the SEC was acting
ultra vires. See Jalbert, 327 F. Supp. 3d at 296. But even
if this were true, that claim was waivable. We agree
with the district court’s reliance on City of Arlington
v. FCC, 569 U.S. 290, 133 S. Ct. 1863, 185 L. Ed. 2d 941
(2013), to support its conclusion that ultra vires claims
of error can be waived. See Jalbert, 327 F. Supp. 3d at
296. In City of Arlington, the Supreme Court rejected as
merely “illusory” the distinction, for Chevron purposes,
between “jurisdictional” and “nonjurisdictional” agency
interpretations and errors. 569 U.S. at 298. The Supreme
3. Jalbert also takes issue with the cases upon which the district
court relied in concluding that F-Squared’s waiver was effective
because, according to Jalbert, none involved structural separationof-powers violations. But because we have determined that Jalbert’s
claim is not one of structural separation-of-powers violations, we do
not address this point any further.

11a
Appendix A
Court also defined any “improper” agency action as “ultra
vires”. Id. at 297-98. In doing so, it reasoned that
A court’s power to decide a case is independent
of whether its decision is correct . . . . Put
differently, a jurisdictionally proper but
substantively incorrect judicial decision is not
ultra vires. That is not so for agencies charged
with administering congressional statutes.
Both their power to act and how they are to
act is authoritatively prescribed by Congress,
so that when they act improperly, no less than
when they act beyond their jurisdiction, what
they do is ultra vires. Because the question —
whether framed as an incorrect application of
agency authority or an assertion of authority
not conferred — is always whether the agency
has gone beyond what Congress has permitted
it to do, there is no principled basis for carving
out some arbitrary subset of such claims as
“jurisdictional.”
Id. Therefore, if the SEC was acting unlawfully in
seeking the $30 million disgorgement from F-Squared,
its actions were no more ultra vires than if the SEC had
misinterpreted its statutes. And statutory construction
claims are largely subject to waiver. See Boston
Redevelopment Auth. v. Nat’l Park Serv., 838 F.3d 42,
47-50 (1st Cir. 2016) (finding waiver of challenge to the
National Park Service’s construction of the Land and
Water Conservation Fund Act); see also Nat. Res. Def.
Council, Inc. v. EPA, 25 F.3d 1063, 1073-74, 306 U.S. App.

12a
Appendix A
D.C. 357 (D.C. Cir. 1994) (finding waiver of statutory and
regulatory construction challenge). Moreover, generally,
while jurisdictional issues can be raised at any time during
the case and are never waived, non-jurisdictional issues
are waivable. See Gonzalez v. Thaler, 565 U.S. 134, 141,
132 S. Ct. 641, 181 L. Ed. 2d 619 (2012); see also Wolf v.
Reliance Standard Life Ins. Co., 71 F.3d 444, 446, 449
(1st Cir. 1995).
The Supreme Court’s analysis in City of Arlington
leads us to conclude that challenges to ultra vires agency
action are waivable. Our conclusion comports with other
circuits’ decisions. See PGS Geophysical AS v. Iancu,
891 F.3d 1354, 1362 (Fed. Cir. 2018) (“Even if the [Patent
Trial and Appeal Board of the U.S. Patent and Trademark
Office] could be said to have acted ‘ultra vires’ in refusing
to institute reviews of some claims and grounds — and
then proceeding to merits decisions concerning the claims
and grounds included in the instituted reviews — the
Board’s error is waivable . . . .”); Metro-North Commuter
R.R. Co. v. U.S. Dep’t of Labor, 886 F.3d 97, 108 (2d
Cir. 2018) (relying on the Supreme Court’s decision in
City of Arlington to find that challenges to an agency’s
jurisdiction over certain claims can be waived); 1621 Route
22 W. Operating Co. v. NLRB, 825 F.3d 128, 139-42 (3d
Cir. 2016) (finding the challenge to an agency’s jurisdiction
was waived); CBS Broad., Inc. v. EchoStar Commc’ns
Corp., 450 F.3d 505, 520 n.27 (11th Cir. 2006) (finding
the argument that the FCC acted beyond the scope of its
authority and, thus, that its action was ultra vires, to be
waived); see also Boston Redevelopment Auth., 838 F.3d
at 47 (finding the argument waived that because agency

13a
Appendix A
action was ultra vires the agency’s determination should
be reviewed de novo).
Faced with, at most, a claim alleging that the SEC
exceeded its jurisdictional authority and acted ultra vires
in seeking disgorgement, the district court correctly
concluded that the claim was waivable and that F-Squared
had undeniably waived the right to assert the claim by
settling with the SEC.
Next, Jalbert avers that the waiver does not reach his
APA claims because he is not seeking review of the Order
and does not intend to “disturb the merits of the SEC’s
substantive decision” regarding F-Squared’s securities
laws violations and the amount of the civil penalty. Instead,
he contends that he is simply seeking a declaration that the
SEC lacks the power to enter disgorgement orders, and
consequently, the disgorgement against F-Squared is void.
Contrary to Jalbert’s contention, by challenging
the validity of the disgorgement, he is challenging the
Order itself because it was through that Order (to which
F-Squared consented) that the SEC directed F-Squared
to pay a disgorgement of $30 million into the Treasury.
Furthermore, the plain text of the waiver states that
it applies to “[j]udicial review by any court.” See 17
C.F.R. § 201.240(c)(4)(v). This language is broad enough
to encompass claims under the APA because those
entail judicial review of an agency decision, see 5 U.S.C.
§ 706(2)(A)-(F) (providing bases for a reviewing court
to “hold unlawful and set aside agency action, findings,
and conclusions”), even if Jalbert does not challenge the

14a
Appendix A
substantive findings of the Order. When F-Squared chose
to settle and execute the Offer, it decided to waive all
judicial review by any court without qualification.
Relatedly, Jalbert posits that his challenge to the
SEC’s disgorgement practices is not limited to F-Squared’s
disgorgement order but includes a challenge to the SEC’s
“longstanding practice and procedure of obtaining
disgorgement in an unauthorized punitive fashion in a host
of cases” on behalf of a putative class of similarly situated
parties. This argument, too, is unavailing.
We have noted that “in most respects, the class
members other than the named plaintiffs are merely
potential parties until subject matter jurisdiction for
the named plaintiffs is established and the district court
has decided to certify a class.” Pruell v. Caritas Christi,
645 F.3d 81, 84 (1st Cir. 2011). When a class action is
filed, it “includes only the claims of the named plaintiff
or plaintiffs. The claims of unnamed class members are
added to the action later, when the action is certified
as a class under [Federal Rule of Civil Procedure] 23.”
Id. (quoting Gibson v. Chrysler Corp., 261 F.3d 927, 940
(9th Cir. 2001)). Here, the district court did not certify a
class. It merely determined that it lacked subject matter
jurisdiction. Thus, the purported existence of those
claims by “similarly situated parties” was irrelevant to
the district court’s decision to dismiss the case. It is also
hard to see how, for the putative class’s claim, Jalbert
could meet the injury-in-fact requirement of Article III,
which requires a plaintiff to establish an injury that is
“concrete and particularized” and “actual or imminent,

15a
Appendix A
not ‘conjectural’ or ‘hypothetical.’” Reddy v. Foster, 845
F.3d 493, 500 (1st Cir. 2017) (quoting Susan B. Anthony
List v. Driehaus, 573 U.S. 149, 158, 134 S. Ct. 2334, 189
L. Ed. 2d 246 (2014)); see Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1545, 194 L. Ed. 2d 635 (2016) (“[T]he injuryin-fact requirement [of Article III] requires a plaintiff to
allege an injury that is both ‘concrete and particularized.’”
(emphasis in original) (quoting Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180-81,
120 S. Ct. 693, 145 L. Ed. 2d 610 (2000))); see also Simon
v. E. Ky. Welfare Rights Org., 426 U.S. 26, 40 n.20, 96 S.
Ct. 1917, 48 L. Ed. 2d 450 (1976) (“[E]ven named plaintiffs
who represent a class ‘must allege and show that they
personally have been injured, not that injury has been
suffered by other, unidentified members of the class to
which they belong and which they purport to represent.’”
(quoting Warth v. Seldin, 422 U.S. 490, 502, 95 S. Ct. 2197,
45 L. Ed. 2d 343 (1975))).
Next, Jalbert takes aim at the SEC’s use of Rule
240 — which requires the waiver of judicial review as a
condition of settlement — arguing that it cannot overcome
the presumption that SEC actions are judicially reviewable
under the APA. He contends that the incorporation of Rule
240 into SEC orders is unlawful because the SEC may not
“contract out” of APA review.
To begin, nothing in the record suggests that the
purpose or aim of Rule 240 is to overcome the presumption
of reviewability of SEC actions under the APA. Surely,
before entering into the settlement with the SEC,
F-Squared knew or should have known there were avenues,

16a
Appendix A
both direct and collateral, to obtain judicial review of an
SEC order. Indeed, F-Squared expressly acknowledged
in its Offer that it was waiving certain procedural rights.
See 17 C.F.R. § 201.240(c)(4)-(5). F-Squared knowingly
and voluntarily chose to enter into an early settlement
and waive judicial review rather than partake in public
administrative and cease-and-desist proceedings. We have
found that settlements are strongly encouraged by public
policy, especially, where “a government actor committed
to the protection of the public interest has pulled the
laboring oar in constructing the proposed settlement.”
United States v. Cannons Eng’g Corp., 899 F.2d 79, 84
(1st Cir. 1990) (citing FTC v. Standard Fin. Mgmt. Corp.,
830 F.2d 404, 408 (1st Cir. 1987)).
Moreover, the APA itself requires an agency to give
parties opportunity for “the submission and consideration
of . . . offers of settlement.” 5 U.S.C. § 554(c)(1). The
Senate Report accompanying this provision states that
“[t]he settlement by consent provision is extremely
important because agencies ought not to engage in formal
proceedings where the parties are perfectly willing to
consent to judgments or adjust situations informally.”
S. Doc. No. 79-248, at 361 (1946). We note that other
agencies have similar regulations requiring the waiver
of judicial review as a condition of settling an action with
the agency. See, e.g., 16 C.F.R. § 2.32 (FTC regulation
requiring that “[e]very agreement [in settlement of an
FTC complaint] waive further procedural steps and all
rights to seek judicial review or otherwise to challenge
or contest the validity of the order”); 47 C.F.R. § 1.94(c)
(3) (FCC regulation requiring “[a] waiver of the right of

17a
Appendix A
judicial review or otherwise to challenge or contest the
validity of the consent order” to be included in settlement
agreements); 49 C.F.R. § 511.26(d)(2) (DOT regulation
requiring an offer of settlement to contain “[a]n express
waiver of further procedural steps, and of all rights to
seek judicial review or otherwise to contest the validity of
the order”). And Jalbert cites no authority for upending
a waiver of judicial review contained in a settlement with
a governmental agency.
In his final attempt to dodge the waiver, Jalbert
invokes contract principles to allege that the waiver is
unenforceable because the agreement was infected with
a mutual mistake of law. Specifically, Jalbert avers that
both the SEC and F-Squared believed the SEC had the
authority to obtain the $30 million disgorgement from
F-Squared, and that it was not until the Supreme Court’s
decision in Kokesh that F-Squared realized the mistake.
This argument, again, assumes that Kokesh changed the
law on SEC disgorgement despite its explicit, narrow
holding. And even taking as true Jalbert’s assertion
that Kokesh changed the law since F-Squared and
the SEC settled, that case is silent about agreed-upon
disgorgement orders, a product of parties’ agreements
to settle impending administrative proceedings, like the
disgorgement here.
In any event, under Massachusetts law, “a party
cannot avoid a contract merely because the parties are
mistaken as to an assumption, even though significant,
on which the contract was made.” Shawmut-Canton LLC
v. Great Spring Waters of Am., Inc., 62 Mass. App. Ct.

18a
Appendix A
330, 816 N.E.2d 545, 550-51 (Mass. App. Ct. 2004) (citing
Restatement (Second) of Contracts § 152 cmt. c (1981)).
“Relief is only appropriate in situations where a mistake
of both parties has such a material effect on the agreed
exchange of performances as to upset the very basis for
the contract.” Id. at 551 (quoting Restatement (Second)
of Contracts § 152 cmt. a). Moreover, the mistake must be
based on a fact “capable of ascertainment at the time” the
parties entered the contract.4 LaFleur v. C.C. Pierce Co.,
398 Mass. 254, 496 N.E.2d 827, 830 (Mass. 1986); Cook v.
Kelley, 352 Mass. 628, 227 N.E.2d 330, 333 (Mass. 1967).
Here, the purported change in law was not “capable of
ascertainment” when F-Squared and the SEC entered
into the settlement. By Jalbert’s own concession, the law
was “so well established at the time of the settlement,”
that “the parties were not settling because of any
uncertainty about the SEC’s statutory authority to obtain
disgorgement. Instead, the parties settled over the issue
of whether there had been a violation of the securities
laws.” Thus, Jalbert cannot escape the final settlement
that F-Squared willingly entered into in 2014 for reasons
completely collateral to a then-unforeseeable Supreme
Court decision that was handed down nearly three years
later to have a second bite of the apple in an attempt to
obtain a refund of $30 million. 5
4. The Restatement (Second) of Contracts clarifies that it does
not “draw the distinction that is sometimes made between ‘fact’ and
‘law.’” Restatement (Second) of Contracts § 151 cmt. b. Rather, it
“treat[s] the law in existence at the time of the making of the contract
as part of the total state of facts at that time.” Id.
5. We should also note that Jalbert’s request that a party to a
final and binding settlement agreement should be allowed to back-

19a
Appendix A
Unconvinced by Jalbert’s arguments that the
voluntary, express waiver of judicial review in the Order
is void or ineffective, we conclude that the district court
correctly decided that the complaint failed to state a claim
upon which relief could be granted inasmuch as F-Squared
waived judicial review by any court. Having decided that
Jalbert’s claims are not entitled to judicial review, it is
unnecessary to address Jalbert’s remaining arguments,
and our conclusion is sufficient to dispose of this appeal.
III. Conclusion
For the foregoing reasons, we affirm the district
court’s order.
Affirmed.

pedal when purportedly more favorable law emerges several years
later does not comport with this Court’s policy favoring settlement
“as a preferred alternative to costly, time-consuming litigation.” Fid.
& Guar. Ins. Co. v. Star Equip. Corp., 541 F.3d 1, 5 (1st Cir. 2008)
(quoting Mathewson Corp. v. Allied Marine Indus., Inc., 827 F.2d
850, 852 (1st Cir. 1987)). See also Mathewson Corp., 827 F.2d at 852
(“We have characterized a settlement negotiated, as here, ‘under
the eyes of the court [as] a most solemn undertaking.’” (alteration
in original) (quoting Warner v. Rossignol, 513 F.2d 678, 682 (1st Cir.
1975))); id. at 852-53 (finding that we “will enforce the [settlement]
without regard to what the result might have been had the parties
chosen to litigate” (quoting Terrain Enters., Inc. v. W. Cas. & Sur.
Co., 774 F.2d 1320, 1321 (5th Cir. 1985))).

20a
Appendix B
APPENDIX B — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MASSACHUSETTS,
FILED AUGUST 22, 2018
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action
No. 17-12103-FDS
CRAIG R. JALBERT, IN HIS CAPACITY
AS TRUSTEE OF THE F2 LIQUIDATING TRUST,
ON BEHALF OF HIMSELF AND ALL OTHERS
SIMILARLY SITUATED,
Plaintiff,
v.
SECURITIES AND EXCHANGE COMMISSION,
Defendant.
August 22, 2018, Decided;
August 22, 2018, Filed
MEMORANDUM AND ORDER
ON DEFENDANT’S MOTION TO DISMISS
SAYLOR, J.
This is a suit by a bankruptcy trustee challenging the
authority of the Securities and Exchange Commission

21a
Appendix B
to order disgorgement as part of a settlement of an
administrative proceeding. The settlement in question
occurred in 2014. The trustee filed suit three years later,
seeking to invalidate that settlement, on the ground that
the disgorgement was unlawful.
F-Squared Investments, Inc., a Massachusetts-based
registered investment adviser, was charged in an SEC
administrative proceeding with using materially false
marketing materials. In December 2014, it entered into
a settlement with the SEC. As part of that settlement,
it agreed to pay disgorgement of $30 million and a civil
money penalty of $5 million. In addition, it expressly
agreed to waive “judicial review” of that settlement by
“any court.”
In 2015, F-Squared filed for bankruptcy, and Craig
Jalbert was appointed as trustee of plaintiff F2 Liquidating
Trust, the successor-in-interest to F-Squared.
The trustee now challenges that settlement, contending
that the disgorgement portion of the order was unlawful
in light of the Supreme Court’s opinion in Kokesh v. SEC,
137 S. Ct. 1635, 198 L. Ed. 2d 86 (2017). The SEC has
moved to dismiss the complaint for lack of subject-matter
jurisdiction and failure to state a claim. For the following
reasons, the motion to dismiss will be granted.

22a
Appendix B
I.

Background
A.

Factual Background

The facts are set forth as described in the complaint,
attached exhibits, and public record.
1.

F-Squared’s Securities Violations

F-Squared Investments, Inc. was a Wellesley-based
investment adviser. (Compl. Ex. A ¶ 5). It was founded
by Howard Present in 2006. (Id. ¶ 6). It launched its
first “AlphaSector” index in October 2008. (Id. ¶ 5). The
“AlphaSector” investment strategy was an exchangetraded fund (“ETF”) sector rotation strategy. (Id. ¶ 1).1
F-Squared would apply ETF trend data to determine
whether a particular ETF was in or out of the AlphaSector
portfolio. (Id. ¶ 2).
Between October 2008 and September 2013, F-Squared
marketed the AlphaSector strategy. (Id. ¶ 7). F-Squared’s
marketing materials included inaccurate statements
portraying AlphaSector indices as actual performance in
1. An ETF typically owns shares of stock that closely track an
underlying index. For example, the popular ETF SPDR tracks the
S&P 500, a leading index that is based on the market capitalization
of the 500 largest companies trading on the NYSE or NASDAQ.
However, unlike mutual funds, ETFs are traded in the same manner
as common stock on exchanges and are accordingly more liquid.
Sector rotation entails moving funds from one industry sector
to another in an attempt to outperform the market.

23a
Appendix B
the period from April 2001 to September 2008. (Id. ¶ 29).
Specifically, F-Squared claimed the strategy was “not
back[-]tested,” when in fact it was. (Id. ¶¶ 1, 7 n.3). 2 In
addition, F-Squared incorrectly applied ETF trend data
such that the AlphaSector strategy implemented buy and
sell signals one week before the price shifts creating the
signals actually occurred. (Id. ¶¶ 2-3). 3
By June 30, 2014, approximately $28.5 billion had
been invested pursuant to 75 AlphaSector indices. (Id.
¶ 7 n.3). $13 billion of that amount was in mutual-fund
assets sub-advised by F-Squared. (Id. ¶ 5).4 Most of the
assets invested pursuant to AlphaSector indices were
invested through registered mutual funds, other funds,
or separately managed accounts managed by advisers or
brokers who received information from F-Squared. (Id.
¶ 7).
2. “Back-testing” involves applying an investment strategy
to past market conditions to show how the strategy could have
performed had it been used then. However, because it does not
portray actual performance, the SEC has restricted its use in
advertising.
3. An investment of $100,000 in the S&P 500 on April 1, 2001,
would have been worth $128,000 on August 24, 2008, a 28% increase.
Using an accurately timed, but still back-tested, AlphaSector
strategy, the investment would have been worth $138,000 on
August 24, 2008, a 38% increase. Using the inaccurately timed
and backtested AlphaSector strategy, which was the one actually
advertised, the investment would have been worth $235,000 on
August 24, 2008, a 135% increase. (Compl. Ex. A ¶ 3).
4. A fund subadvisor is a third party hired by the fund adviser
to help manage a portion of the investment portfolio.

24a
Appendix B
2.

The Settlement with the SEC

At some point, the SEC began investigating whether
F-Squared had violated federal securities laws. In
December 2014, F-Squared and the SEC entered into a
settlement in order to resolve the matter. The settlement
involved an administrative proceeding, not a civil
enforcement action.
The settlement took the form of an “Offer of Settlement
of F-Squared Investments, Inc.” that was accepted by the
SEC, although presumably the terms were negotiated
in advance. The settlement agreement indicated that
F-Squared “submits this Offer of Settlement . . . in
anticipation of public administrative and cease-and-desist
proceedings to be instituted against it by the [SEC]”
pursuant to the Investment Advisers Act of 1940 and the
Investment Company Act of 1940. (Def. Ex. 1 § I).
Among other things, F-Squared admitted to certain
facts; acknowledged that its conduct violated the federal
securities laws; and admitted that the SEC had jurisdiction
over it and over the matters at issue. (Id. § VII). F-Squared
also “consent[ed] to the entry of the attached Order by
Commission, in which the Commission” (1) found that
F-Squared willfully violated §§ 204, 206, and 207 of the
Investment Advisers Act and various rules promulgated
under that act, and aided and abetted a violation of
§ 34(b) of the Investment Company Act; (2) ordered that
F-Squared cease and desist from committing any future
violations; (3) ordered that F-Squared “pay disgorgement
of [$30 million] to the United States Treasury”; (4) ordered
that it pay a “civil money penalty” of $5 million to the

25a
Appendix B
Treasury; and (5) ordered that it comply with certain
undertakings, largely relating to compliance. (Id.).
The “Offer of Settlement” also included the
following language:
By submitting this Offer, Respondent hereby
acknowledges its waiver of those rights specified
in Rules 240(c)(4) and (5) [17 C.F.R. 201.240(c)(4)
and (5)] of the Commission’s Rules of Practice.
(Id. § V). Rule 240(c)(4) provides as follows:
(4) By submitting an offer of settlement, the
person making the offer waives, subject to
acceptance of the offer:
(i) A ll hearings pursuant to the
statutory provisions under which
the proceeding is to be or has been
instituted;
(ii) The filing of proposed findings of
fact and conclusions of law;
(iii) Proceedings before, and an initial
decision by, a hearing officer;
(iv) All post-hearing procedures; and
(v) Judicial review by any court.
17 C.F.R. 201.240(c)(4) (emphasis added).

26a
Appendix B
F-Squared then transferred $35 million to the
Treasury Department. (Compl. ¶ 59). No portion of
that money was paid to the present or former clients of
F-Squared. (Id.).
3.

Later Developments

On July 8, 2015, F-Squared filed for bankruptcy. (Id.
¶ 60). Craig Jalbert was appointed by the bankruptcy
court as trustee of the F2 Liquidating Trust, F-Squared’s
successor-in-interest. (Id. ¶ 11).
On June 5, 2017, the Supreme Court issued its opinion
in Kokesh, described in greater detail below.
B. Procedural Background
The trustee filed this complaint on October 26,
2017. He seeks to represent a class of all securities-law
violators who have paid disgorgement to the SEC over
the past six years. The complaint does not distinguish
between disgorgement orders in administrative or judicial
proceedings. It asserts two counts, both brought under the
Administrative Procedure Act (“APA”), 5 U.S.C. §§ 701-06.
Count 1 is a claim that the SEC “exceeded its statutory
authority by obtaining ‘disgorgement’” in enforcement
actions. Count 2 is a claim that the SEC failed to comply
with the procedural requirements of federal securities
laws by failing to obtain an accounting of profits before
ordering disgorgement.
The SEC has moved to dismiss the complaint for lack
of subject-matter jurisdiction pursuant to Fed. R. Civ. P.

27a
Appendix B
12(b)(1) and failure to state a claim pursuant to Fed. R.
Civ. P. 12(b)(6).
II. Legal Standard
On a motion to dismiss, the court “must assume the
truth of all well-plead[ed] facts and give . . . plaintiff the
benefit of all reasonable inferences therefrom.” Ruiz v.
Bally Total Fitness Holding Corp., 496 F.3d 1, 5 (1st Cir.
2007) (citing Rogan v. Menino, 175 F.3d 75, 77 (1st Cir.
1999)). To survive a motion to dismiss, the complaint must
state a claim that is plausible on its face. Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d
929 (2007). In other words, the “[f]actual allegations must
be enough to raise a right to relief above the speculative
level, . . . on the assumption that all the allegations in the
complaint are true (even if doubtful in fact).” Id. at 555
(citations omitted). “The plausibility standard is not akin
to a ‘probability requirement,’ but it asks for more than a
sheer possibility that a defendant has acted unlawfully.”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173
L. Ed. 2d 868 (2009) (quoting Twombly, 550 U.S. at 556).
Dismissal is appropriate if the complaint fails to set forth
“factual allegations, either direct or inferential, respecting
each material element necessary to sustain recovery
under some actionable legal theory.” Gagliardi v. Sullivan,
513 F.3d 301, 305 (1st Cir. 2008) (quoting Centro Medico
del Turabo, Inc. v. Feliciano de Melecio, 406 F.3d 1, 6
(1st Cir. 2005)).

28a
Appendix B
III. Analysis
The trustee contends that in light of the Supreme
Court’s decision in Kokesh, which was issued in 2017,
the $30 million disgorgement paid to the SEC as part of
the 2015 settlement is invalid. The trustee has multiple
hurdles to overcome to establish such a claim. First, and as
set forth below, the SEC has explicit statutory authority to
enter disgorgement orders in administrative proceedings.
Thus, the settlement is valid unless the SEC’s exercise
of its statutory authority to obtain disgorgement was
somehow illegal. Second, and as noted above, F-Squared
entered into a binding settlement with the SEC in which
it expressly waived judicial review. Therefore, the Court
may consider the trustee’s claims only if that waiver is
somehow void or otherwise ineffective. Third, Congress
has created a process for judicial review of SEC orders
in administrative proceedings, and that process does not
involve the federal district courts. Accordingly, this Court
has subject-matter jurisdiction over the trustee’s claims
only if that statutory scheme is somehow inapplicable.
A.

The Supreme Court’s Decision in Kokesh

Following the stock market crash in 1929, Congress
enacted a series of laws to regulate the securities industry.
Among other things, the Securities Exchange Act of 1934
(“Exchange Act”) created the SEC to enforce federal
securities laws. “Congress granted the [SEC] power
to prescribe ‘rules and regulations . . . as necessary or
appropriate in the public interest or for the protection of
investors.” Kokesh, 137 S. Ct. at 1640 (quoting Blue Chip

29a
Appendix B
Stamps v. Manor Drug Stores, 421 U.S. 723, 728, 95 S.
Ct. 1917, 44 L. Ed. 2d 539 (1975)).
“Initially, the only statutory remedy available to
the SEC in an enforcement action was an injunction
barring future violations of securities laws.” Id. Despite
a lack of explicit statutory authority, beginning in the
1970s, courts began to order disgorgement in SEC civil
enforcement suits as an exercise of their equitable powers
to “deprive . . . defendants of their profits in order to
remove any monetary reward for violating securities
laws.” Id. (quoting SEC v. Texas Gulf Sulphur Co., 312 F.
Supp. 77, 92 (S.D.N.Y. 1970)). 5
In 1990, as part of the Penny Stock Reform Act,
Congress authorized the SEC to seek monetary civil
penalties. See 15 U.S.C. §§ 77h-1(g), 77t(d), 78u(d)(3), 78u2, 80a-9(d), 80a-41(e), 80b-3(i), and 80b-9(e). That act also
specifically authorized the SEC for the first time to seek
disgorgement in administrative proceedings. See 15 U.S.C.
§§ 77h-1(e), 78u-2(e), 78u-3(e), 80a-9(e) & f(5), and 80b-3(j)
& k(5)). Although the wording of the particular statutory
provisions varied slightly, all provided that the SEC “may
enter an order requiring accounting and disgorgement,
including reasonable interest.” (For the sake of simplicity,
the Court will refer to the various statutory enactments,
which are largely identical, in the singular.) Congress did
not, however, provide statutory authority to the SEC to
obtain disgorgement in civil enforcement proceedings.
5. Disgorgement has been defined as “[t]he act of giving up
something (such as profits illegally obtained) on demand or by legal
compulsion.” Black’s Law Dictionary (10th ed. 2014).

30a
Appendix B
In Kokesh, the Supreme Court was presented with
the following question: whether disgorgement ordered in
a civil enforcement proceeding constituted a “penalty”
subject to the five-year statute of limitations set forth
in 28 U.S.C. § 2462.6 The Court unanimously held that
disgorgement was such a penalty. Kokesh, 137 S. Ct.
at 1645. It reasoned that disgorged funds rarely go to
victims, are designed to deter future violations, and are
not limited to the amount of harm caused. Id. at 1644-45
(“disgorgement thus bears all the hallmarks of a penalty:
It is imposed as a consequence of violating a public law
and it is intended to deter, not to compensate.”).
The Court observed in a footnote: “Nothing in this
opinion should be interpreted as an opinion on whether
courts possess authority to order disgorgement in SEC
enforcement proceedings or on whether courts have
properly applied disgorgement principles in this context.”
Id. at 1642 n.3.
Since Kokesh, various parties have attempted to
challenge court-ordered disgorgement as exceeding the
SEC’s statutory authority. Some courts have interpreted
Kokesh narrowly. See, e.g., SEC v. Sample, 2017 U.S.
Dist. LEXIS 191025, 2017 WL 5569873, at *2 (N.D. Tex.
Nov. 20, 2017) (“Kokesh merely held that disgorgement
claims are subject to 28 U.S.C. § 2462’s five-year statute
of limitations. [It] had no effect on how courts apply
6. That statute provides: “Except as otherwise provided . . .
an action, suit or proceeding for the enforcement of any civil fine,
penalty, or forfeiture . . . shall not be entertained unless commenced
within five years from the date when the claim first accrued . . . .”

31a
Appendix B
disgorgement principles.”); FTC v. J. William Enters.,
LLC, 283 F. Supp. 3d 1259, 1262 (M.D. Fla. 2017) (“the
Supreme Court’s deliberate avoidance of [the question of
whether disgorgement is permissible] provides no basis
for this Court to disregard decades of precedent”); SEC v.
Jammin Java Corp., 2017 U.S. Dist. LEXIS 157730, 2017
WL 4286180, at *3 (C.D. Cal. Sep. 14, 2017) (“As it presently
stands, Kokesh is best seen as a decision clarifying the
statutory scope of § 2462, rather than one redefining the
essential attributes of disgorgement.”). Other courts have
cautioned that Kokesh may have abrogated precedents
used to justify disgorgement. See, e.g., United States
v. Latorella, 2017 U.S. Dist. LEXIS 98849, 2017 WL
2785413, at *4 n.4 (D. Mass. June 27, 2017) (Woodlock,
J.) (“It bears noting that the Supreme Court [in Kokesh]
expressly reserved the question whether courts possess
authority to order disgorgement in SEC enforcement
proceedings.”); SEC v. Amerindo Inv. Advisors, Inc.,
2017 U.S. Dist. LEXIS 110407, 2017 WL 3017504, at *8
(S.D.N.Y. July 14, 2017); Saad v. SEC, 873 F.3d 297, 305
(D.C. Cir. 2017) (“the Supreme Court’s decision in Kokesh
overturned a line of cases from [the D.C. Circuit] that
had concluded that disgorgement was remedial and not
punitive”) (Kavanaugh, J., concurring). None of those
cases, however, addressed the issue of disgorgement in
an administrative proceeding, which again is specifically
authorized by statute.
B. Whether the Statute Permitted the Imposition
of Disgorgement
The trustee argues that the SEC’s imposition of
disgorgement was unlawful because it was a penalty, not

32a
Appendix B
a remedial action intended to benefit investor victims,
and because the SEC did not conduct an accounting. (See
Compl. ¶ 31 (alleging that the agency did not “conduct[]
an accounting or return[] funds to investor victims.”)).
Because Congress has separately provided statutory
authority for civil money penalties, the trustee reasons
that the SEC is “double-dipping despite statutory
limitations” and attempting to rewrite “clear statutory
terms.” (Mem. in Opp. at 13 (citing Util. Air Regulatory
Group v. EPA, 573 U.S. 302, 134 S. Ct. 2427, 2446, 189 L.
Ed. 2d 372 (2014)). In other words, the trustee contends
that as a matter of statutory construction, the term
“disgorgement” does not include disgorgement as a form
of penalty, and that therefore such disgorgement is not
authorized. The trustee also contends that because no
accounting occurred, the $30 million disgorgement amount
paid in the settlement had no connection either to the net
profits obtained by F-Squared from the scheme or the
gross proceeds it received from investors.
As noted, Congress in 1990 expressly gave the SEC
the authority to obtain disgorgement in administrative
proceedings. W hether Congress intended only to
provide authority for “disgorgement-as-remedy,” but
not “disgorgement-as penalty,” is not obvious from
the statutory language. The statute simply uses the
word “disgorgement”; it does not say, for example,
“disgorgement of profits” or “disgorgement of proceeds
in order to provide restitution to victims.” 7
7. Disgorgement of profits would eliminate any gain by a
violator, but presumably would be insufficient to compensate victims
for the loss of their investments; that would normally require
disgorgement of some or all of the gross proceeds.

33a
Appendix B
The trustee argues that the term “disgorgement”
necessarily excludes punitive disgorgement because the
provision permitting civil penalties elsewhere in the statute
necessarily precludes other monetary penalties. But many
statutory schemes provide for multiple, overlapping
forms of penalties (such as imprisonment, fines, and
forfeitures in criminal cases). Furthermore, as the trustee
himself notes, a broad interpretation of “disgorgement”
had been accepted by the courts since the 1970s. It is a
basic canon of statutory construction that “Congress is
understood to legislate against a background of commonlaw adjudicatory principles.” Astoria Fed. Sav. and Loan
Ass’n v. Solimino, 501 U.S. 104, 108, 111 S. Ct. 2166, 115 L.
Ed. 2d 96 (1991). Twenty years elapsed between the time
when the SEC first exercised disgorgement authority in
Texas Gulf Sulphur and when the Penny Stock Reform
Act became law. Arguably, Congress was aware of that
long-standing practice and intended to codify it, at least
in administrative proceedings.
In any event, this Court need not resolve that issue.
Whatever the merits of the trustee’s argument as a matter
of statutory interpretation, that argument has clearly
been waived.
C.

Whether the Waiver Is Valid

As noted above, F-Squared, as part of the settlement,
clearly and unambiguously waived the right to judicial
review by any court. The trustee nonetheless disputes
the validity of the waiver on multiple grounds.

34a
Appendix B
First, the trustee contends that the settlement was
“narrowly drawn in a manner that does not reach this
case.” (Mem. in Opp. at 17). In support, the trustee argues
that the waiver only applied to “direct reviews of orders
and not to collateral claims under the APA.” (Id.). But the
waiver does not say that; instead, by its terms, it applies
to “[j[udicial review by any court.” A claim under the APA
seeks judicial review of an agency action. There is nothing
in the settlement to suggest that the waiver of judicial
review was limited solely to direct review, as opposed to
collateral review under the APA.
Second, the trustee contends that the waiver was
“unenforceable because it was based on a mistake of law.”
(Id.). Specifically, he argues that the settlement was the
product of a mutual mistake because the parties were
proceeding on the incorrect assumption that the SEC had
the authority to impose punitive disgorgement, and that
no one realized the mistake until the Supreme Court in
Kokesh ruled to the contrary.
But even if Kokesh changed disgorgement law as to
civil enforcement proceedings—and the Supreme Court
specifically noted it did not—that opinion says nothing
about the application of disgorgement in administrative
proceedings. Again, there is no question that the statute, then
and now, explicitly permits the SEC to require disgorgement
in administrative proceedings. The trustee does not contend
that the statute is unconstitutional. Rather, and in essence,
the trustee is claiming that (1) the SEC misinterpreted the
meaning of the term “disgorgement” in the statute; (2) by
interpreting the statute too broadly, it was acting outside the

35a
Appendix B
scope of its statutory authority—that is, acting ultra vires;
and (3) by doing so, the SEC was acting unconstitutionally,
in violation of principles of separation of powers. According
to the trustee, that is an argument that “may not be waived
or bargained away.” (Id. at 13).
That argument fails, at a minimum, at the last step.
Even if the SEC’s application of its disgorgement authority
was ultra vires, any such error by the agency was clearly
waivable. In City of Arlington v. FCC, 569 U.S. 290, 29798, 133 S. Ct. 1863, 185 L. Ed. 2d 941 (2013), the Supreme
Court rejected a distinction between agency errors that
are jurisdictional and those that are non-jurisdictional.
Justice Scalia, writing for the Court, observed as follows:
A court’s power to decide a case is independent
of whether its decision is correct . . . .
That is not so for agencies charged with
administering congressional statutes. Both
their power to act and how they are to act is
authoritatively prescribed by Congress, so that
when they act improperly, no less than when they
act beyond their jurisdiction, what they do is ultra
vires. Because the question—whether framed
as an incorrect application of agency authority
or an assertion of authority not conferred—is
always whether the agency has gone beyond
what Congress has permitted it to do, there is no
principled basis for carving out some arbitrary
subset of such claims as “jurisdictional.”
Id.

36a
Appendix B
Since City of Arlington, multiple courts of appeals
have held that a party may waive an ultra vires challenge
to agency action. See, e.g., PGS Geophysical AS v. Iancu,
891 F.3d 1354, 1362 (Fed. Cir. 2018) (finding challenge to
action of Patent Trial and Appeal Board as ultra vires
waivable) (citing CBS Broad., Inc. v. EchoStar Commc’ns
Corp., 450 F.3d 505, 520 n.27 (11th Cir. 2006)); MetroNorth Commuter R.R. Co. v. Dep’t of Labor, 886 F.3d 97,
108 (2d Cir. 2018) (finding waiver of challenge to agency
jurisdiction); 1621 Route 22 W. Operating Co., LLC v.
NLRB, 825 F.3d 128, 140-43 (3d Cir. 2016) (same).
It is thus abundantly clear that any claim that the SEC
exceeded its jurisdiction is waivable, and that F-Squared
waived its right to assert such a claim. Accordingly, to the
extent that the trustee is claiming that the settlement
exceeded the jurisdictional authority of the SEC, that
claim has been waived.
D.

Whether the Challenge Should Have Been
Brought in the Court of Appeals

Finally, the trustee contends that his challenge may be
brought under the APA, and need not have been brought
as a petition for judicial review with the Court of Appeals.
Both the Investment Advisers Act and Investment
Company Act provide as follows:
Any person or party aggrieved by an order
issued by the [SEC] may obtain a review
of such order in the United States court of

37a
Appendix B
appeals within any circuit wherein such [party]
resides . . . or in the United States Court of
Appeals for the District of Columbia, by filing
in such court, within sixty days after the entry
of such order, a written petition praying that
the order of the [SEC] be modified or set aside
in whole or in part.
15 U.S.C. §§ 80a-42(a) & 80b-13(a). Under those statutes,
F-Squared should have filed a petition for review
challenging the disgorgement order with either the First
Circuit or the D.C. Circuit within sixty days after the
order was entered. Because F-Squared entered into the
settlement agreement on December 22, 2014, the deadline
for filing such a petition expired on February 20, 2015. It
is undisputed that no petition for review was ever filed. 8
When a statute provides for “a particular procedure
and time period” for challenging agency actions, the APA
does not provide an alternative mechanism for judicial
review. See N.Y. Republican State Comm. v. SEC, 799
F.3d 1126, 1135-36, 419 U.S. App. D.C. 92 (D.C. Cir. 2015).
And as a general matter, “[i]t is well settled that . . . a
statute [that] vests jurisdiction in a particular court cuts
off original jurisdiction in other courts in all cases covered
by that statute.” Telecomm. Research and Action Center
8. Of course, F-Squared did not file such a petition because the
matter had been settled—and it had expressly waived its right to
judicial review. But as set forth below, meaningful judicial review
was available had F-Squared elected to challenge the disgorgement
order. It therefore had a full opportunity, had it chosen not to settle
the case, to litigate the claims presented here.

38a
Appendix B
v. FCC, 750 F.2d 70, 77, 242 U.S. App. D.C. 222 (D.C. Cir.
1984).9 In Thunder Basin Coal Co. v. Reich, 510 U.S. 200,
114 S. Ct. 771, 127 L. Ed. 2d 29 (1994), the Supreme Court
established a framework for determining when a statute
forecloses district-court jurisdiction.
The first question is to determine whether such intent
is “fairly discernible in the statutory scheme.” Id. at 207.
At least three courts of appeals have already concluded
that the exclusive channeling scheme in the federal
securities laws clearly reflects such intent. See Tilton v.
SEC, 824 F.3d 276, 281 (2d Cir. 2016); Jarkesy v. SEC, 803
F.3d 9, 15-16, 419 U.S. App. D.C. 394 (D.C. Cir. 2016); Bebo
v. SEC, 799 F.3d 765, 767 (7th Cir. 2015). The trustee does
not appear to challenge that conclusion.
The second question is to determine if the litigant’s
claims are “of the type Congress intended to be reviewed
within [the] statutory structure.” Thunder Basin,
510 U.S. at 212. In answering that question, district
courts are to weigh three factors: (1) the availability of
meaningful judicial review, (2) whether the claims are
“wholly collateral” to the statutory review provisions, and
(3) whether the litigant’s claims fall within the agency’s
expertise. See Tilton, 824 F.3d at 282-91. Those three
factors are “general guideposts” rather than “distinct
9. The trustee bears the burden of establishing that the court
has subject-matter jurisdiction. See Amoche v. Guar. Trust Life Ins.
Co., 556 F.3d 41, 48 (1st Cir. 2009). “The usual rule in class actions
is that that to establish subject[-]matter jurisdiction one looks only
to the named plaintiffs and their claims.” Pruell v. Caritas Christi,
645 F.3d 81, 83 (1st Cir. 2011). Accordingly, the Court will consider
only the trustee’s claims.

39a
Appendix B
inputs” in “a strict mathematical formula.” Jarkesy, 803
F.3d at 17.
1.

Meaningful Judicial Review

The availability of meaningful review has been
characterized as the “most important” Thunder Basin
factor. See Bebo, 799 F.3d at 774-75. The trustee here relies
heavily on Free Enterprise Fund v. Public Co. Accounting
Oversight Bd., 561 U.S. 477, 130 S. Ct. 3138, 177 L. Ed. 2d
706 (2010), in which the Supreme Court held that a provision
of the Exchange Act governing challenges to final SEC
orders did not strip district courts of jurisdiction to hear a
constitutional challenge to the Public Company Accounting
Oversight Board (“PCAOB”). Id. at 489. Writing for the
Court, Chief Justice Roberts wrote that “[p]rovisions for
agency review do not restrict judicial review unless the
statutory scheme displays a fairly discernible intent to
limit jurisdiction, and the claims at issue are of the type
Congress intended to be reviewed within the statutory
structure.” (citation and internal quotation marks omitted).
Id. However, in Free Enterprise Fund, the plaintiffs were
challenging the constitutionality of PCAOB itself. The
Court reasoned that meaningful judicial review would not
be provided if plaintiffs were first required to “bet the farm”
by violating a PCAOB rule to test the board’s legitimacy. Id.
at 490-91. By contrast, there was undoubtedly an avenue for
meaningful judicial review here—unlike in Free Enterprise
Fund, F-Squared was already subject to a final SEC action
(the order requiring disgorgement), which could have been
appealed to the Court of Appeals.10
10. The trustee also relies on McNary v. Haitian Refugee
Center, Inc., 498 U.S. 479, 111 S. Ct. 888, 112 L. Ed. 2d 1005 (1991).

40a
Appendix B
The trustee similarly relies on Freytag v. Commissioner,
501 U.S. 868, 111 S. Ct. 2631, 115 L. Ed. 2d 764 (1991), in
which the Supreme Court rejected the government’s
arguments that petitioners had waived their right to
challenge the constitutionality of a statute by failing to
make a timely objection before a Special Trial Judge.
The trustee here argues that structural constitutional
challenges to agency actions are exempt from statutes
restricting judicial review. However, he ignores a long
line of judicial precedent upholding statutes that provide
for exclusive channeling schemes. The Supreme Court
recently addressed this issue in Elgin v. Dep’t of Treasury,
567 U.S. 1, 11-12, 132 S. Ct. 2126, 183 L. Ed. 2d 1 (2012),
when it upheld a provision in the Civil Service Reform Act
limiting judicial review of decisions from the Merit Systems
Protection Board to the Federal Circuit. Accordingly,
meaningful judicial review was available to F-Squared
under the circumstances presented here.
2.

“Wholly Collateral”

Next, the court must consider whether the trustee’s
claims are “wholly collateral” to the statutory scheme
of the securities laws. That question is interrelated with
the question of meaningful judicial review. See Free
Enterprise Fund, 561 U.S. at 489-90 (analyzing both
factors simultaneously).
In McNary, the Court held that requiring aliens to “voluntarily
surrender themselves for deportation” to challenge their denial of
Special Agricultural Worker status under the Immigration Reform
Control Act was “tantamount to a complete denial of judicial review.”
Id. at 496-97. Again, no such concern was present here.

41a
Appendix B
The Supreme Court did not explain in Thunder Basin
or its progeny how to determine whether a claim is “wholly
collateral.” However, the Elgin court suggested that a
claim is not “wholly collateral if it serves as the ‘vehicle
by which’ a party seeks to prevail in an administrative
proceeding.” Tilton, 824 F.3d at 287 (quoting Elgin, 567
U.S. at 22). Lower courts have largely concluded that
a claim is “not wholly collateral if it has been raised in
response to, and so is procedurally intertwined with, an
administrative proceeding—regardless of the claim’s
substantive connection to the initial merits dispute in the
proceeding.” Id. (citing Jarkesy, 803 F.3d at 23; Bebo v.
SEC, 2015 U.S. Dist. LEXIS 25660, 2015 WL 905349, at
*2-4 (E.D. Wis. Mar, 3, 2015).11
Here, the trustee’s argument, at least arguably,
is substantively “unrelated to the securities violations
underlying the administrative proceeding.” Tilton v. SEC,
2015 U.S. Dist. LEXIS 85015, 2015 WL 4006165, at *11
(S.D.N.Y. June 30, 2015). Nevertheless, the claims raised
in the complaint were indisputably raised in response to
the SEC administrative proceeding. And had F-Squared
timely filed a petition for review with the Court of Appeals,
those claims would have been the “vehicle by which” it
sought to prevail. Nothing barred F-Squared from raising
11. Earlier, two other lower courts found that a claim was
not wholly collateral to an administrative proceeding only if
was substantively intertwined with the merits dispute that the
proceeding was commenced to resolve. See Hill v. SEC, 114 F. Supp.
3d 1297, 1309 (N.D. Ga. 2015) (vacated by Hill v. SEC, 825 F.3d 1236
(11th Cir. 2016)); Duka v. SEC, 103 F. Supp. 3d 382, 391 (S.D.N.Y.
2015) (abrogated by Tilton, 824 F.3d 276).

42a
Appendix B
those claims within the exclusive channeling scheme.
Accordingly, the trustee’s claims are not wholly collateral
to that scheme.
3.

Agency Expertise

Finally, the court must determine whether the
particular claims here fall within the SEC’s expertise.
That is a closer question—in Free Enterprise Fund, the
Supreme Court held that petitioners’ constitutional claims
were “outside the [SEC’s] competence and expertise.”
561 U.S. at 491. However, in Elgin, the Supreme Court
provided guiding language stating that agencies could use
their expertise to resolve “the many threshold questions
that may accompany a constitutional claim.” 567 U.S. at 22.
Here, the trustee is substantively challenging the
SEC’s interpretation of “disgorgement” in the securities
laws. Agencies routinely address such statutory claims.
See Tilton, 824 F.3d at 290 (“[W]e think that the SEC
might bring its expertise to bear on the appellants’
proceeding by resolving accompanying statutory claims
that it routinely considers, and which might fully dispose
of the case.”) (citation and quotation marks omitted);
Jarkesy, 803 F.3d at 29 (“[T]he [SEC] could offer an
interpretation of the securities laws in the course of the
proceeding that might answer or shed light on [appellant’s
constitutional] challenge.”). Therefore, the agency had
sufficient expertise to consider the trustee’s claims during
the proceedings against F-Squared. In any event, even
assuming that the SEC was “powerless” to consider the
trustee’s claims, that alone is insufficient to “bypass the

43a
Appendix B
statutory remedial scheme” “because meaningful review
of those claims in an Article III Court of Appeals [was]
available.” Tilton, 2015 U.S. Dist. LEXIS 85015, 2015 WL
4006165, at *13.
Again, F-Squared never presented the trustee’s
arguments to the SEC—instead, it voluntarily entered
into a settlement agreement. Those arguments could
then have been presented to the Court of Appeals in a
petition for review more than three years ago. Allowing
the trustee to circumvent the procedure explicitly set
forth by Congress to challenge that settlement would
undermine the finality and certainty of SEC orders. See
N.Y. Republican State Comm., 799 F.3d at 1136.
In short, the trustee’s claims were subject to review
within the SEC’s exclusive statutory structure, and should
have been raised with the Court of Appeals. The fact
that this claim has been repackaged under the heading
of an APA claim does not exempt it from the exclusive
channeling regime Congress prescribed. See e.g., Jarkesy,
803 F.3d at 29-30 (holding that the exclusive channeling
scheme in the Securities Act and Exchange Act provided
the sole means for judicial review despite claims of
constitutional violations). This Court accordingly does not
have subject-matter jurisdiction over the claims raised.
4.

The Applicability of 15 U.S.C. § 80b-13

Finally, during the motion hearing, counsel for the
trustee cited excerpts from 15 U.S.C. § 80b-13 for the
proposition that the Court of Appeals does not have

44a
Appendix B
exclusive jurisdiction of final SEC orders until a petition for
review has been filed with that court.12 However, counsel
is cherry-picking statutory terms in order to create an
incorrect interpretation of the statute. It is black-letter
law that filing a notice of appeal in a civil proceeding
confers sole jurisdiction on the courts of appeals, divesting
district courts of jurisdiction. See Griggs v. Provident
Consumer Discount Co., 459 U.S. 56, 58-59, 103 S. Ct.
400, 74 L. Ed. 2d 225 (1982). Section 80b-13 is the parallel
provision in the Investment Advisers Act that divests
the SEC of jurisdiction after a petition for review is filed
with the Court of Appeals. The federal securities laws
clearly do not grant district courts jurisdiction to review
SEC orders in administrative proceedings except in one
12. 15 U.S.C. § 80b-13(a) provides as follows:
Any person or party aggrieved by an order issued by
the [SEC] may obtain a review of such order in the
United States court of appeals . . . by filing in such
court, within sixty days after the entry of such order,
a written petition praying that the order of the [SEC]
be modified or set aside in whole or in part.
A copy of such petition shall be forthwith transmitted
by the clerk of the court to any member of the [SEC],
or any officer thereof designated by the [SEC] for
that purpose, and thereupon the [SEC] shall file in
the court the record upon which the order complained
of was entered, as provided in section 2112 of title 28.
Upon the filing of such petition such court shall have
jurisdiction, which upon the filing of the record shall
be exclusive, to affirm, modify, or set aside such order,
in whole or in part.
(emphasis added).

45a
Appendix B
narrow circumstance—to review temporary cease and
desist orders—which is not present here. See e.g., 15 U.S.C.
§ 80b-3(k)(3)(A), (4)(B) (Investment Advisers Act).
IV. Conclusion
For the foregoing reasons, defendant’s motion to
dismiss for failure to state a claim and lack of subjectmatter jurisdiction is GRANTED.
So Ordered.
				/s/ F. Dennis Saylor
				
F. Dennis Saylor IV
				
United States District Judge
Dated: August 22, 2018

46a
C STATUTORY
Appendix C —Appendix
RELEVANT
PROVISIONS
15 U.S.C. § 80a-9
§ 80a-9. Ineligibility of certain affiliated
persons and underwriters
Effective: July 22, 2010
(a) Persons deemed ineligible for ser vice with
investment companies, etc.; investment adviser
It shall be unlawful for any of the following persons to
serve or act in the capacity of employee, officer, director,
member of an advisory board, investment adviser, or
depositor of any registered investment company, or
principal underwriter for any registered open-end
company, registered unit investment trust, or registered
face-amount certificate company:
(1) any person who within 10 years has been convicted
of any felony or misdemeanor involving the purchase
or sale of any security or arising out of such person’s
conduct as an underwriter, broker, dealer, investment
adviser, municipal securities dealer, government
securities broker, government securities dealer, bank,
transfer agent, credit rating agency, or entity or
person required to be registered under the Commodity
Exchange Act, or as an affiliated person, salesman, or
employee of any investment company, bank, insurance
company, or entity or person required to be registered
under the Commodity Exchange Act;

47a
Appendix C
(2) any person who, by reason of any misconduct,
is permanently or temporarily enjoined by order,
judgment, or decree of any court of competent
jurisdiction from acting as an underwriter, broker,
dealer, investment adviser, municipal securities dealer,
government securities broker, government securities
dealer, bank, transfer agent, credit rating agency, or
entity or person required to be registered under the
Commodity Exchange Act, or as an affiliated person,
salesman, or employee of any investment company,
bank, insurance company, or entity or person required
to be registered under the Commodity Exchange
Act, or from engaging in or continuing any conduct
or practice in connection with any such activity or in
connection with the purchase or sale of any security; or
(3) a company any affiliated person of which is
ineligible, by reason of paragraph (1) or (2) of this
subsection, to serve or act in the foregoing capacities.
For the purposes of paragraphs (1) to (3) of this subsection,
the term “investment adviser” shall include an investment
adviser as defined in subchapter II of this chapter.
(b) Certain persons serving investment companies;
administrative action of Commission
The Commission may, after notice and opportunity for
hearing, by order prohibit, conditionally or unconditionally,
either permanently or for such period of time as it in its
discretion shall deem appropriate in the public interest,
any person from serving or acting as an employee, officer,

48a
Appendix C
director, member of an advisory board, investment
adviser or depositor of, or principal underwriter for, a
registered investment company or affiliated person of such
investment adviser, depositor, or principal underwriter,
if such person-(1) has willfully made or caused to be made in any
registration statement, application or report filed
with the Commission under this subchapter any
statement which was at the time and in the light of
the circumstances under which it was made false or
misleading with respect to any material fact, or has
omitted to state in any such registration statement,
application, or report any material fact which was
required to be stated therein;
(2) has willfully violated any provision of the Securities
Act of 1933, or of the Securities Exchange Act of
1934, or of subchapter II of this chapter, or of this
subchapter, or of the Commodity Exchange Act, or
of any rule or regulation under any of such statutes;
(3) has willfully aided, abetted, counseled, commanded,
induced, or procured the violation by any other person
of the Securities Act of 1933, or of the Securities
Exchange Act of 1934, or of subchapter II of this
chapter, or of this subchapter, or of the Commodity
Exchange Act, or of any rule or regulation under any
of such statutes;
(4) has been found by a foreign financial regulatory
authority to have--

49a
Appendix C
(A) made or caused to be made in any application
for registration or report required to be filed with
a foreign securities authority, or in any proceeding
before a foreign securities authority with respect
to registration, any statement that was at the time
and in light of the circumstances under which
it was made false or misleading with respect
to any material fact, or has omitted to state in
any application or report to a foreign securities
authority any material fact that is required to be
stated therein;
(B) violated any foreign statute or regulation
regarding transactions in securities or contracts
of sale of a commodity for future delivery traded
on or subject to the rules of a contract market or
any board of trade; or
(C) aided, abetted, counseled, commanded,
induced, or procured the violation by any other
person of any foreign statute or regulation
regarding transactions in securities or contracts
of sale of a commodity for future delivery traded
on or subject to the rules of a contract market or
any board of trade;
(5) within 10 years has been convicted by a foreign
court of competent jurisdiction of a crime, however
denominated by the laws of the relevant foreign
government, that is substantially equivalent to an
offense set forth in paragraph (1) of subsection (a); or

50a
Appendix C
(6) by reason of any misconduct, is temporarily
or permanently enjoined by any foreign court of
competent jurisdiction from acting in any of the
capacities, set forth in paragraph (2) of subsection (a),
or a substantially equivalent foreign capacity, or from
engaging in or continuing any conduct or practice in
connection with any such activity or in connection with
the purchase or sale of any security.
(c) Application of ineligible person for exemption
Any person who is ineligible, by reason of subsection
(a), to serve or act in the capacities enumerated in such
subsection, may file with the Commission an application
for an exemption from the provisions of such subsection.
The Commission shall by order grant such application,
either unconditionally or on an appropriate temporary
or other conditional basis, if it is established that the
prohibitions of such subsection (a) as applied to such
person, are unduly or disproportionately severe or that
the conduct of such person has been such as not to make
it against the public interest or protection of investors to
grant such application.
(d) Money penalties in administrative proceedings
(1) Authority of Commission
(A) In general
In any proceeding instituted pursuant to subsection
(b) against any person, the Commission may impose

51a
Appendix C
a civil penalty if it finds, on the record after notice
and opportunity for hearing, that such penalty is
in the public interest, and that such person-(i) has willfully violated any provision of the
Securities Act of 1933, the Securities Exchange
Act of 1934, subchapter II of this chapter, or
this subchapter, or the rules or regulations
thereunder;
(ii) has willfully aided, abetted, counseled,
commanded, induced, or procured such a
violation by any other person; or
(iii) has willfully made or caused to be made
in any registration statement, application, or
report required to be filed with the Commission
under this subchapter, any statement which
was, at the time and in the light of the
circumstances under which it was made, false
or misleading with respect to any material fact,
or has omitted to state in any such registration
statement, application, or report any material
fact which was required to be stated therein;1
(B) Cease-and-desist proceedings
In any proceeding instituted pursuant to subsection
(f) against any person, the Commission may impose
a civil penalty if the Commission finds, on the
1. So in original. The semicolon probably should be a period.

52a
Appendix C
record, after notice and opportunity for hearing,
that such person-(i) is violating or has violated any provision of
this subchapter, or any rule or regulation issued
under this subchapter; or
(ii) is or was a cause of the violation of any
provision of this subchapter, or any rule or
regulation issued under this subchapter.
(2) Maximum amount of penalty
(A) First tier
The maximum amount of penalty for each act
or omission described in paragraph (1) shall be
$5,000 for a natural person or $50,000 for any
other person.
(B) Second tier
Notwithstanding subparagraph (A), the maximum
amount of penalty for each such act or omission
shall be $50,000 for a natural person or $250,000 for
any other person if the act or omission described in
paragraph (1) involved fraud, deceit, manipulation,
or deliberate or reckless disregard of a regulatory
requirement.

53a
Appendix C
(C) Third tier
Notwithstanding subparagraphs (A) and (B), the
maximum amount of penalty for each such act or
omission shall be $100,000 for a natural person or
$500,000 for any other person if-(i) the act or omission described in paragraph
(1) involved fraud, deceit, manipulation, or
deliberate or reckless disregard of a regulatory
requirement; and
(ii) such act or omission directly or indirectly
resulted in substantial losses or created a
significant risk of substantial losses to other
persons or resulted in substantial pecuniary
gain to the person who committed the act or
omission.
(3) Determination of public interest
In considering under this section whether a penalty is
in the public interest, the Commission may consider-(A) whether the act or omission for which such
penalty is assessed involved fraud, deceit,
manipulation, or deliberate or reckless disregard
of a regulatory requirement;
(B) the harm to other persons resulting either
directly or indirectly from such act or omission;

54a
Appendix C
(C) the extent to which any person was unjustly
enriched, taking into account any restitution made
to persons injured by such behavior;
(D) whether such person previously has been found
by the Commission, another appropriate regulatory
agency, or a self-regulatory organization to
have violated the Federal securities laws, State
securities laws, or the rules of a self-regulatory
organization, has been enjoined by a court of
competent jurisdiction from violations of such
laws or rules, or has been convicted by a court of
competent jurisdiction of violations of such laws or
of any felony or misdemeanor described in section
80b-3(e)(2) of this title;
(E) the need to deter such person and other persons
from committing such acts or omissions; and
(F) such other matters as justice may require.
(4) Evidence concerning ability to pay
In any proceeding in which the Commission may
impose a penalty under this section, a respondent may
present evidence of the respondent’s ability to pay
such penalty. The Commission may, in its discretion,
consider such evidence in determining whether such
penalty is in the public interest. Such evidence may
relate to the extent of such person’s ability to continue
in business and the collectability of a penalty, taking
into account any other claims of the United States or

55a
Appendix C
third parties upon such person’s assets and the amount
of such person’s assets.
(e) Authority to enter order requiring accounting and
disgorgement
In any proceeding in which the Commission may impose a
penalty under this section, the Commission may enter an
order requiring accounting and disgorgement, including
reasonable interest. The Commission is authorized to
adopt rules, regulations, and orders concerning payments
to investors, rates of interest, periods of accrual, and such
other matters as it deems appropriate to implement this
subsection.
(f) Cease-and-desist proceedings
(1) Authority of Commission
If the Commission finds, after notice and opportunity
for hearing, that any person is violating, has violated,
or is about to violate any provision of this subchapter,
or any rule or regulation thereunder, the Commission
may publish its findings and enter an order requiring
such person, and any other person that is, was, or would
be a cause of the violation, due to an act or omission the
person knew or should have known would contribute to
such violation, to cease and desist from committing or
causing such violation and any future violation of the
same provision, rule, or regulation. Such order may,
in addition to requiring a person to cease and desist
from committing or causing a violation, require such

56a
Appendix C
person to comply, or to take steps to effect compliance,
with such provision, rule, or regulation, upon such
terms and conditions and within such time as the
Commission may specify in such order. Any such order
may, as the Commission deems appropriate, require
future compliance or steps to effect future compliance,
either permanently or for such period of time as the
Commission may specify, with such provision, rule, or
regulation with respect to any security, any issuer, or
any other person.
(2) Hearing
The notice instituting proceedings pursuant to
paragraph (1) shall fix a hearing date not earlier than
30 days nor later than 60 days after service of the
notice unless an earlier or a later date is set by the
Commission with the consent of any respondent so
served.
(3) Temporary order
(A) In general
Whenever the Commission determines that the
alleged violation or threatened violation specified
in the notice instituting proceedings pursuant to
paragraph (1), or the continuation thereof, is likely
to result in significant dissipation or conversion
of assets, significant harm to investors, or
substantial harm to the public interest, including,
but not limited to, losses to the Securities Investor

57a
Appendix C
Protection Corporation, prior to the completion
of the proceeding, the Commission may enter
a temporary order requiring the respondent to
cease and desist from the violation or threatened
violation and to take such action to prevent the
violation or threatened violation and to prevent
dissipation or conversion of assets, significant
harm to investors, or substantial harm to the public
interest as the Commission deems appropriate
pending completion of such proceedings. Such
an order shall be entered only after notice and
opportunity for a hearing, unless the Commission,
notwithstanding section 80a-39(a) of this title,
determines that notice and hearing prior to entry
would be impracticable or contrary to the public
interest. A temporary order shall become effective
upon service upon the respondent and, unless set
aside, limited, or suspended by the Commission
or a court of competent jurisdiction, shall remain
effective and enforceable pending the completion
of the proceedings.
(B) Applicability
This paragraph shall apply only to a respondent
that acts, or, at the time of the alleged misconduct
acted, as a broker, dealer, investment adviser,
investment company, municipal securities dealer,
government secur ities broker, government
securities dealer, or transfer agent, or is, or was at
the time of the alleged misconduct, an associated
person of, or a person seeking to become associated

58a
Appendix C
with, any of the foregoing.
(4) Review of temporary orders
(A) Commission review
At any time after the respondent has been served
with a temporary cease-and-desist order pursuant
to paragraph (3), the respondent may apply to
the Commission to have the order set aside,
limited, or suspended. If the respondent has been
served with a temporary cease-and-desist order
entered without a prior Commission hearing, the
respondent may, within 10 days after the date on
which the order was served, request a hearing on
such application and the Commission shall hold a
hearing and render a decision on such application
at the earliest possible time.
(B) Judicial review
Within-(i) 10 days after the date the respondent was
served with a temporary cease-and-desist order
entered with a prior Commission hearing, or
(ii) 10 days after the Commission renders
a decision on an application and hearing
under subparagraph (A), with respect to any
temporary cease-and-desist order entered
without a prior Commission hearing,

59a
Appendix C
the respondent may apply to the United
States district court for the district in which
the respondent resides or has its principal
place of business, or for the District of
Columbia, for an order setting aside,
limiting, or suspending the effectiveness or
enforcement of the order, and the court shall
have jurisdiction to enter such an order. A
respondent served with a temporary ceaseand-desist order entered without a prior
Commission hearing may not apply to the
court except after hearing and decision
by the Commission on the respondent’s
application under subparagraph (A) of this
paragraph.
(C) No automatic stay of temporary order
T he commencement of proceedings under
subparagraph (B) of this paragraph shall not,
unless specifically ordered by the court, operate
as a stay of the Commission’s order.
(D) Exclusive review
Section 80a-42 of this title shall not apply to a
temporary order entered pursuant to this section.
(5) Authority to enter order requiring accounting
and disgorgement
In any cease-and-desist proceeding under subsection
(f)(1), the Commission may enter an order requiring

60a
Appendix C
accounting and disgorgement, including reasonable
interest. The Commission is authorized to adopt
rules, regulations, and orders concerning payments to
investors, rates of interest, periods of accrual, and such
other matters as it deems appropriate to implement
this subsection.
(g) Corporate or other trustees performing functions
of investment advisers
For the purposes of this section, the term “investment
adviser” includes a corporate or other trustee performing
the functions of an investment adviser.

61a
Appendix C
15 U.S.C. § 80b-3
§ 80b-3. Registration of investment advisers
Effective: January 3, 2019
(a) Necessity of registration
Except as provided in subsection (b) and section 80b-3a of
this title, it shall be unlawful for any investment adviser,
unless registered under this section, to make use of
the mails or any means or instrumentality of interstate
commerce in connection with his or its business as an
investment adviser.
(b) Investment advisers who need not be registered
The provisions of subsection (a) shall not apply to-(1) any investment adviser, other than an investment
adviser who acts as an investment adviser to any
private fund, all of whose clients are residents of the
State within which such investment adviser maintains
his or its principal office and place of business, and who
does not furnish advice or issue analyses or reports
with respect to securities listed or admitted to unlisted
trading privileges on any national securities exchange;
(2) any investment adviser whose only clients are
insurance companies;
(3) any investment adviser that is a foreign private
adviser;

62a
Appendix C
(4) any investment adviser that is a charitable
organization, as defined in section 80a-3(c)(10)(D) of
this title, or is a trustee, director, officer, employee,
or volunteer of such a charitable organization acting
within the scope of such person’s employment or
duties with such organization, whose advice, analyses,
or reports are provided only to one or more of the
following:
(A) any such charitable organization;
(B) a fund that is excluded from the definition of
an investment company under section 80a-3(c)(10)
(B) of this title; or
(C) a trust or other donative instrument described
in section 80a-3(c)(10)(B) of this title, or the trustees,
administrators, settlors (or potential settlors), or
beneficiaries of any such trust or other instrument;
(5) any plan described in section 414(e) of Title 26, any
person or entity eligible to establish and maintain such
a plan under Title 26, or any trustee, director, officer, or
employee of or volunteer for any such plan or person, if
such person or entity, acting in such capacity, provides
investment advice exclusively to, or with respect to, any
plan, person, or entity or any company, account, or fund
that is excluded from the definition of an investment
company under section 80a-3(c)(14) of this title;
(6)(A) any investment adviser that is registered with
the Commodity Futures Trading Commission as a

63a
Appendix C
commodity trading advisor whose business does not
consist primarily of acting as an investment adviser,
as defined in section 80b-2(a)(11) of this title, and that
does not act as an investment adviser to-(i) an investment company registered under
subchapter I of this chapter; or
(ii) a company which has elected to be a business
development company pursuant to section
80a-53 of this title and has not withdrawn its
election; or
(B) any investment adviser that is registered with
the Commodity Futures Trading Commission
as a commodity trading advisor and advises
a private fund, provided that, if after July 21,
2010, the business of the advisor should become
predominately the provision of securities-related
advice, then such adviser shall register with the
Commission;
(7) any investment adviser, other than any entity
that has elected to be regulated or is regulated as a
business development company pursuant to section
80a-53 of this title, who solely advises-(A) small business investment companies that are
licensees under the Small Business Investment
Act of 1958;
(B) entities that have received from the Small
Business Administration notice to proceed to

64a
Appendix C
qualify for a license as a small business investment
company under the Small Business Investment
Act of 1958, which notice or license has not been
revoked; or
(C) applicants that are affiliated with 1 or more
licensed small business investment companies
described in subparagraph (A) and that have
applied for another license under the Small
Business Investment Act of 1958, which application
remains pending; or
(8) any investment adviser, other than an entity
that has elected to be regulated or is regulated as a
business development company pursuant to section
80a-53 of this title, who solely advises-(A) rural business investment companies (as
defined in section 2009cc of Title 7); or
(B) companies that have submitted to the Secretary
of Agriculture an application in accordance with
section 2009cc-3(b) of Title 7 that-(i) have received from the Secretary of
Agriculture a letter of conditions, which has
not been revoked; or
(ii) are aff iliated w ith 1 or more r ural
business investment companies described in
subparagraph (A).

65a
Appendix C
(c) Procedure for registration; filing of application;
effective date of registration; amendment of registration
(1) An investment adviser, or any person who presently
contemplates becoming an investment adviser, may be
registered by filing with the Commission an application
for registration in such form and containing such
of the following information and documents as the
Commission, by rule, may prescribe as necessary or
appropriate in the public interest or for the protection
of investors:
(A) the name and form of organization under
which the investment adviser engages or intends
to engage in business; the name of the State or
other sovereign power under which such investment
adviser is organized; the location of his or its
principal office, principal place of business, and
branch offices, if any; the names and addresses
of his or its partners, officers, directors, and
persons performing similar functions or, if such
an investment adviser be an individual, of such
individual; and the number of his or its employees;
(B) the education, the business affiliations for the
past ten years, and the present business affiliations
of such investment adviser and of his or its partners,
officers, directors, and persons performing similar
functions and of any controlling person thereof;
(C) the nature of the business of such investment
adviser, including the manner of giving advice and
rendering analyses or reports;

66a
Appendix C
(D) a balance sheet certified by an independent
public accountant and other financial statements
(which shall, as the Commission specifies, be
certified);
(E) the nature and scope of the authority of such
investment adviser with respect to clients’ funds
and accounts;
(F) the basis or bases upon which such investment
adviser is compensated;
(G) whether such investment adviser, or any person
associated with such investment adviser, is subject
to any disqualification which would be a basis for
denial, suspension, or revocation of registration of
such investment adviser under the provisions of
subsection (e) of this section; and
(H) a statement as to whether the principal business
of such investment adviser consists or is to consist
of acting as investment adviser and a statement
as to whether a substantial part of the business of
such investment adviser, consists or is to consist of
rendering investment supervisory services.
(2) Within forty-five days of the date of the filing of
such application (or within such longer period as to
which the applicant consents) the Commission shall-(A) by order grant such registration; or

67a
Appendix C
(B) institute proceedings to determine whether
registration should be denied. Such proceedings
shall include notice of the grounds for denial
under consideration and opportunity for hearing
and shall be concluded within one hundred twenty
days of the date of the filing of the application for
registration. At the conclusion of such proceedings
the Commission, by order, shall grant or deny such
registration. The Commission may extend the time
for conclusion of such proceedings for up to ninety
days if it finds good cause for such extension and
publishes its reasons for so finding or for such
longer period as to which the applicant consents.
The Commission shall grant such registration if the
Commission finds that the requirements of this section
are satisfied and that the applicant is not prohibited
from registering as an investment adviser under
section 80b-3a of this title. The Commission shall deny
such registration if it does not make such a finding
or if it finds that if the applicant were so registered,
its registration would be subject to suspension or
revocation under subsection (e) of this section.
(d) Other acts prohibited by subchapter
Any provision of this subchapter (other than subsection (a)
of this section) which prohibits any act, practice, or course
of business if the mails or any means or instrumentality
of interstate commerce are used in connection therewith
shall also prohibit any such act, practice, or course of
business by any investment adviser registered pursuant

68a
Appendix C
to this section or any person acting on behalf of such an
investment adviser, irrespective of any use of the mails
or any means or instrumentality of interstate commerce
in connection therewith.
(e) Censure, denial, or suspension of registration; notice
and hearing
The Commission, by order, shall censure, place limitations
on the activities, functions, or operations of, suspend
for a period not exceeding twelve months, or revoke the
registration of any investment adviser if it finds, on the
record after notice and opportunity for hearing, that such
censure, placing of limitations, suspension, or revocation
is in the public interest and that such investment adviser,
or any person associated with such investment adviser,
whether prior to or subsequent to becoming so associated-(1) has willfully made or caused to be made in any
application for registration or report required to be
filed with the Commission under this subchapter, or in
any proceeding before the Commission with respect to
registration, any statement which was at the time and
in the light of the circumstances under which it was
made false or misleading with respect to any material
fact, or has omitted to state in any such application
or report any material fact which is required to be
stated therein.
(2) has been convicted within ten years preceding
the filing of any application for registration or at any
time thereafter of any felony or misdemeanor or of a
substantially equivalent crime by a foreign court of

69a
Appendix C
competent jurisdiction which the Commission finds-(A) involves the purchase or sale of any security, the
taking of a false oath, the making of a false report,
bribery, perjury, burglary, any substantially
equivalent activity however denominated by
the laws of the relevant foreign government, or
conspiracy to commit any such offense;
(B) arises out of the conduct of the business of
a broker, dealer, municipal securities dealer,
investment adviser, bank, insurance company,
government secur ities broker, government
securities dealer, fiduciary, transfer agent, credit
rating agency, foreign person performing a function
substantially equivalent to any of the above, or
entity or person required to be registered under
the Commodity Exchange Act or any substantially
equivalent statute or regulation;
(C) i nvolve s t he l a r c eny, t hef t , r obb er y,
extortion, forgery, counterfeiting, fraudulent
concealment, embezzlement, fraudulent conversion,
or misappropr iation of funds or secur ities
or substantially equivalent activity however
denominated by the laws of the relevant foreign
government; or
(D) involves the violation of section 152, 1341, 1342,
or 1343 or chapter 25 or 47 of Title 18, or a violation
of 2 substantially equivalent foreign statute.
2. So in original. Probably should be “of a”.

70a
Appendix C
(3) has been convicted during the 10-year period
preceding the date of filing of any application for
registration, or at any time thereafter, of-(A) any crime that is punishable by imprisonment
for 1 or more years, and that is not described in
paragraph (2); or
(B) a substantially equivalent crime by a foreign
court of competent jurisdiction.
(4) is permanently or temporarily enjoined by order,
judgment, or decree of any court of competent
jurisdiction, including any foreign court of competent
jurisdiction, from acting as an investment adviser,
underwriter, broker, dealer, municipal securities
dealer, government securities broker, government
securities dealer, transfer agent, credit rating agency,
foreign person performing a function substantially
equivalent to any of the above, or entity or person
required to be registered under the Commodity
Exchange Act or any substantially equivalent
statute or regulation, or as an affiliated person or
employee of any investment company, bank, insurance
company, foreign entity substantially equivalent to
any of the above, or entity or person required to be
registered under the Commodity Exchange Act or any
substantially equivalent statute or regulation, or from
engaging in or continuing any conduct or practice in
connection with any such activity, or in connection with
the purchase or sale of any security.

71a
Appendix C
(5) has willfully violated any provision of the Securities
Act of 1933, the Securities Exchange Act of 1934,
subchapter I of this chapter, this subchapter, the
Commodity Exchange Act, or the rules or regulations
under any such statutes or any rule of the Municipal
Securities Rulemaking Board, or is unable to comply
with any such provision.
(6) has willfully aided, abetted, counseled, commanded,
induced, or procured the violation by any other person
of any provision of the Securities Act of 1933, the
Securities Exchange Act of 1934, subchapter I of this
chapter, this subchapter, the Commodity Exchange
Act, the rules or regulations under any of such statutes,
or the rules of the Municipal Securities Rulemaking
Board, or has failed reasonably to supervise, with a
view to preventing violations of the provisions of such
statutes, rules and regulations, another person who
commits such a violation, if such other person is subject
to his supervision. For the purposes of this paragraph
no person shall be deemed to have failed reasonably
to supervise any person, if-(A) there have been established procedures, and a
system for applying such procedures, which would
reasonably be expected to prevent and detect,
insofar as practicable, any such violation by such
other person, and
(B) such person has reasonably discharged the
duties and obligations incumbent upon him by
reason of such procedures and system without

72a
Appendix C
reasonable cause to believe that such procedures
and system were not being complied with.
(7) is subject to any order of the Commission barring
or suspending the right of the person to be associated
with an investment adviser;
(8) has been found by a foreign financial regulatory
authority to have-(A) made or caused to be made in any application
for registration or report required to be filed with
a foreign securities authority, or in any proceeding
before a foreign securities authority with respect
to registration, any statement that was at the time
and in light of the circumstances under which
it was made false or misleading with respect
to any material fact, or has omitted to state in
any application or report to a foreign securities
authority any material fact that is required to be
stated therein;
(B) violated any foreign statute or regulation
regarding transactions in securities or contracts
of sale of a commodity for future delivery traded
on or subject to the rules of a contract market or
any board of trade; or
(C) aided, abetted, counseled, commanded, induced,
or procured the violation by any other person
of any foreign statute or regulation regarding
transactions in securities or contracts of sale of a

73a
Appendix C
commodity for future delivery traded on or subject
to the rules of a contract market or any board of
trade, or has been found, by the foreign financial3
regulatory authority, to have failed reasonably to
supervise, with a view to preventing violations of
statutory provisions, and rules and regulations
promulgated thereunder, another person who
commits such a violation, if such other person is
subject to his supervision; or
(9) is subject to any final order of a State securities
commission (or any agency or officer performing
like functions), State authority that supervises or
examines banks, savings associations, or credit unions,
State insurance commission (or any agency or office
performing like functions), an appropriate Federal
banking agency (as defined in section 1813(q) of Title
12), or the National Credit Union Administration,
that-(A) bars such person from association with an entity
regulated by such commission, authority, agency,
or officer, or from engaging in the business of
securities, insurance, banking, savings association
activities, or credit union activities; or
(B) constitutes a final order based on violations of
any laws or regulations that prohibit fraudulent,
manipulative, or deceptive conduct.

3. So in original. Probably should be “financial”.

74a
Appendix C
(f) Bar or suspension from association with investment
adviser; notice and hearing
The Commission, by order, shall censure or place
limitations on the activities of any person associated,
seeking to become associated, or, at the time of the
alleged misconduct, associated or seeking to become
associated with an investment adviser, or suspend for a
period not exceeding 12 months or bar any such person
from being associated with an investment adviser, broker,
dealer, municipal securities dealer, municipal advisor,
transfer agent, or nationally recognized statistical rating
organization, if the Commission finds, on the record after
notice and opportunity for hearing, that such censure,
placing of limitations, suspension, or bar is in the public
interest and that such person has committed or omitted
any act or omission enumerated in paragraph (1), (5), (6),
(8), or (9) of subsection (e) or has been convicted of any
offense specified in paragraph (2) or (3) of subsection (e)
within ten years of the commencement of the proceedings
under this subsection, or is enjoined from any action,
conduct, or practice specified in paragraph (4) of subsection
(e). It shall be unlawful for any person as to whom such an
order suspending or barring him from being associated
with an investment adviser is in effect willfully to become,
or to be, associated with an investment adviser without
the consent of the Commission, and it shall be unlawful
for any investment adviser to permit such a person to
become, or remain, a person associated with him without
the consent of the Commission, if such investment adviser
knew, or in the exercise of reasonable care, should have
known, of such order.

75a
Appendix C
(g) Registration of successor to business of investment
adviser
Any successor to the business of an investment adviser
registered under this section shall be deemed likewise
registered hereunder, if within thirty days from its
succession to such business it shall file an application
for registration under this section, unless and until the
Commission, pursuant to subsection (c) or subsection (e)
of this section, shall deny registration to or revoke or
suspend the registration of such successor.
(h) Withdrawal of registration
Any person registered under this section may, upon such
terms and conditions as the Commission finds necessary
in the public interest or for the protection of investors,
withdraw from registration by filing a written notice of
withdrawal with the Commission. If the Commission finds
that any person registered under this section, or who
has pending an application for registration filed under
this section, is no longer in existence, is not engaged in
business as an investment adviser, or is prohibited from
registering as an investment adviser under section 80b3a of this title, the Commission shall by order cancel the
registration of such person.
(i) Money penalties in administrative proceedings
(1) Authority of Commission
(A) In general

76a
Appendix C
In any proceeding instituted pursuant to subsection
(e) or (f) against any person, the Commission may
impose a civil penalty if it finds, on the record
after notice and opportunity for hearing, that
such penalty is in the public interest and that such
person-(i) has willfully violated any provision of the
Securities Act of 1933, the Securities Exchange
Act of 1934, subchapter I of this chapter, or
this subchapter, or the rules or regulations
thereunder;
(ii) has willfully aided, abetted, counseled,
commanded, induced, or procured such a
violation by any other person;
(iii) has willfully made or caused to be made
in any application for registration or report
required to be filed with the Commission under
this subchapter, or in any proceeding before
the Commission with respect to registration,
any statement which was, at the time and in the
light of the circumstances under which it was
made, false or misleading with respect to any
material fact, or has omitted to state in any such
application or report any material fact which
was required to be stated therein; or
(iv) has failed reasonably to supervise, within
the meaning of subsection (e)(6), with a view
to preventing violations of the provisions of

77a
Appendix C
this subchapter and the rules and regulations
thereunder, another person who commits such
a violation, if such other person is subject to his
supervision;4
(B) Cease-and-desist proceedings
In any proceeding instituted pursuant to subsection
(k) against any person, the Commission may impose
a civil penalty if the Commission finds, on the
record, after notice and opportunity for hearing,
that such person-(i) is violating or has violated any provision of
this subchapter, or any rule or regulation issued
under this subchapter; or
(ii) is or was a cause of the violation of any
provision of this subchapter, or any rule or
regulation issued under this subchapter.
(2) Maximum amount of penalty
(A) First tier
The maximum amount of penalty for each act
or omission described in paragraph (1) shall be
$5,000 for a natural person or $50,000 for any
other person.

4. So in original. The semicolon probably should be a period.

78a
Appendix C
(B) Second tier
Notwithstanding subparagraph (A), the maximum
amount of penalty for each such act or omission
shall be $50,000 for a natural person or $250,000 for
any other person if the act or omission described in
paragraph (1) involved fraud, deceit, manipulation,
or deliberate or reckless disregard of a regulatory
requirement.
(C) Third tier
Notwithstanding subparagraphs (A) and (B), the
maximum amount of penalty for each such act or
omission shall be $100,000 for a natural person or
$500,000 for any other person if-(i) the act or omission described in paragraph
(1) involved fraud, deceit, manipulation, or
deliberate or reckless disregard of a regulatory
requirement; and
(ii) such act or omission directly or indirectly
resulted in substantial losses or created a
significant risk of substantial losses to other
persons or resulted in substantial pecuniary
gain to the person who committed the act or
omission.
(3) Determination of public interest
In considering under this section whether a penalty is
in the public interest, the Commission may consider--

79a
Appendix C
(A) whether the act or omission for which such
penalty is assessed involved fraud, deceit,
manipulation, or deliberate or reckless disregard
of a regulatory requirement;
(B) the harm to other persons resulting either
directly or indirectly from such act or omission;
(C) the extent to which any person was unjustly
enriched, taking into account any restitution made
to persons injured by such behavior;
(D) whether such person previously has been found
by the Commission, another appropriate regulatory
agency, or a self-regulatory organization to
have violated the Federal securities laws, State
securities laws, or the rules of a self-regulatory
organization, has been enjoined by a court of
competent jurisdiction from violations of such
laws or rules, or has been convicted by a court of
competent jurisdiction of violations of such laws
or of any felony or misdemeanor described in
subsection (e)(2);
(E) the need to deter such person and other persons
from committing such acts or omissions; and
(F) such other matters as justice may require.
(4) Evidence concerning ability to pay
In any proceeding in which the Commission may
impose a penalty under this section, a respondent may

80a
Appendix C
present evidence of the respondent’s ability to pay
such penalty. The Commission may, in its discretion,
consider such evidence in determining whether such
penalty is in the public interest. Such evidence may
relate to the extent of such person’s ability to continue
in business and the collectability of a penalty, taking
into account any other claims of the United States or
third parties upon such person’s assets and the amount
of such person’s assets.
(j) Authority to enter order requiring accounting and
disgorgement
In any proceeding in which the Commission may impose a
penalty under this section, the Commission may enter an
order requiring accounting and disgorgement, including
reasonable interest. The Commission is authorized to
adopt rules, regulations, and orders concerning payments
to investors, rates of interest, periods of accrual, and such
other matters as it deems appropriate to implement this
subsection.
(k) Cease-and-desist proceedings
(1) Authority of Commission
If the Commission finds, after notice and opportunity
for hearing, that any person is violating, has violated,
or is about to violate any provision of this subchapter,
or any rule or regulation thereunder, the Commission
may publish its findings and enter an order requiring
such person, and any other person that is, was, or
would be a cause of the violation, due to an act or

81a
Appendix C
omission the person knew or should have known would
contribute to such violation, to cease and desist from
committing or causing such violation and any future
violation of the same provision, rule, or regulation.
Such order may, in addition to requiring a person
to cease and desist from committing or causing a
violation, require such person to comply, or to take
steps to effect compliance, with such provision, rule,
or regulation, upon such terms and conditions and
within such time as the Commission may specify in
such order. Any such order may, as the Commission
deems appropriate, require future compliance or steps
to effect future compliance, either permanently or for
such period of time as the Commission may specify,
with such provision, rule, or regulation with respect
to any security, any issuer, or any other person.
(2) Hearing
The notice instituting proceedings pursuant to
paragraph (1) shall fix a hearing date not earlier
than 30 days nor later than 60 days after service of
the notice unless an earlier or a later date is set by
the Commission with the consent of any respondent
so served.
(3) Temporary order
(A) In general
Whenever the Commission determines that the
alleged violation or threatened violation specified

82a
Appendix C
in the notice instituting proceedings pursuant to
paragraph (1), or the continuation thereof, is likely
to result in significant dissipation or conversion
of assets, significant harm to investors, or
substantial harm to the public interest, including,
but not limited to, losses to the Securities Investor
Protection Corporation, prior to the completion
of the proceedings, the Commission may enter
a temporary order requiring the respondent to
cease and desist from the violation or threatened
violation and to take such action to prevent the
violation or threatened violation and to prevent
dissipation or conversion of assets, significant
harm to investors, or substantial harm to the public
interest as the Commission deems appropriate
pending completion of such proceedings. Such
an order shall be entered only after notice and
opportunity for a hearing, unless the Commission,
notwithstanding section 80b-11(c) of this title,
determines that notice and hearing prior to entry
would be impracticable or contrary to the public
interest. A temporary order shall become effective
upon service upon the respondent and, unless set
aside, limited, or suspended by the Commission
or a court of competent jurisdiction, shall remain
effective and enforceable pending the completion
of the proceedings.
(B) Applicability
This paragraph shall apply only to a respondent
that acts, or, at the time of the alleged misconduct

83a
Appendix C
acted, as a broker, dealer, investment adviser,
investment company, municipal securities dealer,
government secur ities broker, government
securities dealer, or transfer agent, or is, or was at
the time of the alleged misconduct, an associated
person of, or a person seeking to become associated
with, any of the foregoing.
(4) Review of temporary orders
(A) Commission review
At any time after the respondent has been served
with a temporary cease-and-desist order pursuant
to paragraph (3), the respondent may apply to
the Commission to have the order set aside,
limited, or suspended. If the respondent has been
served with a temporary cease-and-desist order
entered without a prior Commission hearing, the
respondent may, within 10 days after the date on
which the order was served, request a hearing on
such application and the Commission shall hold a
hearing and render a decision on such application
at the earliest possible time.
(B) Judicial review
Within-(i) 10 days after the date the respondent was
served with a temporary cease-and-desist order
entered with a prior Commission hearing, or

84a
Appendix C
(ii) 10 days after the Commission renders
a decision on an application and hearing
under subparagraph (A), with respect to any
temporary cease-and-desist order entered
without a prior Commission hearing,
the respondent may apply to the United
States district court for the district in which
the respondent resides or has its principal
office or place of business, or for the District
of Columbia, for an order setting aside,
limiting, or suspending the effectiveness or
enforcement of the order, and the court shall
have jurisdiction to enter such an order. A
respondent served with a temporary ceaseand-desist order entered without a prior
Commission hearing may not apply to the
court except after hearing and decision
by the Commission on the respondent’s
application under subparagraph (A) of this
paragraph.
(C) No automatic stay of temporary order
T he com mencement of proceed i ngs under
subparagraph (B) of this paragraph shall not,
unless specifically ordered by the court, operate
as a stay of the Commission’s order.
(D) Exclusive review
Section 80b-13 of this title shall not apply to a
temporary order entered pursuant to this section.

85a
Appendix C
(5) Authority to enter order requiring accounting
and disgorgement
In any cease-and-desist proceeding under paragraph
(1), the Commission may enter an order requiring
accounting and disgorgement, including reasonable
interest. The Commission is authorized to adopt
rules, regulations, and orders concerning payments
to investors, rates of interest, periods of accrual,
and such other matters as it deems appropriate to
implement this subsection.
(l) Exemption of venture capital fund advisers
(1) In general
No investment adviser that acts as an investment
adviser solely to 1 or more venture capital funds shall
be subject to the registration requirements of this
subchapter with respect to the provision of investment
advice relating to a venture capital fund. Not later
than 1 year after July 21, 2010, the Commission shall
issue final rules to define the term “venture capital
fund” for purposes of this subsection. The Commission
shall require such advisers to maintain such records
and provide to the Commission such annual or other
reports as the Commission determines necessary or
appropriate in the public interest or for the protection
of investors.
(2) Advisers of SBICS
For purposes of this subsection, a venture capital fund
includes an entity described in subparagraph (A), (B),

86a
Appendix C
or (C) of subsection (b)(7) (other than an entity that has
elected to be regulated or is regulated as a business
development company pursuant to section 80a-53 of
this title).
(3) Advisers of RBICS
For purposes of this subsection, a venture capital fund
includes an entity described in subparagraph (A) or
(B) of subsection (b)(8) (other than an entity that has
elected to be regulated as a business development
company pursuant to section 80a-53 of this title).
(m) Exemption of and reporting by certain private
fund advisers
(1) In general
The Commission shall provide an exemption from the
registration requirements under this section to any
investment adviser of private funds, if each of 5 such
investment adviser acts solely as an adviser to private
funds and has assets under management in the United
States of less than $150,000,000.
(2) Reporting
The Commission shall require investment advisers
exempted by reason of this subsection to maintain
such records and provide to the Commission such
5. So in original. The word “of” probably should not appear.

87a
Appendix C
annual or other reports as the Commission determines
necessary or appropriate in the public interest or for
the protection of investors.
(3) Advisers of SBICS
For purposes of this subsection, the assets under
management of a private fund that is an entity
described in subparagraph (A), (B), or (C) of subsection
(b)(7) (other than an entity that has elected to be
regulated or is regulated as a business development
company pursuant to section 80a-53 of this title) shall
be excluded from the limit set forth in paragraph (1).
(4) Advisers of RBICS
For purposes of this subsection, the assets under
management of a private fund that is an entity
described in subparagraph (A) or (B) of subsection
(b)(8) (other than an entity that has elected to be
regulated or is regulated as a business development
company pursuant to section 80a-53 of this title) shall
be excluded from the limit set forth in paragraph (1).
(n) Registration and examination of mid-sized private
fund advisers
In prescribing regulations to carry out the requirements
of this section with respect to investment advisers acting
as investment advisers to mid-sized private funds, the
Commission shall take into account the size, governance,
and investment strategy of such funds to determine

88a
Appendix C
whether they pose systemic risk, and shall provide for
registration and examination procedures with respect to
the investment advisers of such funds which reflect the
level of systemic risk posed by such funds.

89a
Appendix C
17 C.F.R. § 201.240
§ 201.240 Settlement.
(a) Availability. Any person who is notified that a
proceeding may or will be instituted against him or her,
or any party to a proceeding already instituted, may, at
any time, propose in writing an offer of settlement.
(b) Procedure. An offer of settlement shall state that it is
made pursuant to this section; shall recite or incorporate
as a part of the offer the provisions of paragraphs (c)
(4) and (5) of this section; shall be signed by the person
making the offer, not by counsel; and shall be submitted
to the interested division.
(c) Consideration of offers of settlement.
(1) Offers of settlement shall be considered by the
interested division when time, the nature of the
proceedings, and the public interest permit.
(2) Where a hearing officer is assigned to a proceeding,
the interested division and the party submitting the
offer may request that the hearing officer express his
or her views regarding the appropriateness of the
offer of settlement. A request for the hearing officer
to express his or her views on an offer of settlement
or otherwise to participate in a settlement conference
constitutes a waiver by the persons making the request
of any right to claim bias or prejudgment by the
hearing officer based on the views expressed.

90a
Appendix C
(3) The interested division shall present the offer of
settlement to the Commission with its recommendation,
except that, if the division’s recommendation is
unfavorable, the offer shall not be presented to the
Commission unless the person making the offer so
requests.
(4) By submitting an offer of settlement, the person
making the offer waives, subject to acceptance of the
offer:
(i) All hearings pursuant to the statutory provisions
under which the proceeding is to be or has been
instituted;
(ii) The filing of proposed findings of fact and
conclusions of law;
(iii) Proceedings before, and an initial decision by,
a hearing officer;
(iv) All post-hearing procedures; and
(v) Judicial review by any court.
(5) By submitting an offer of settlement the person
further waives:
(i) Such provisions of the Rules of Practice or
other requirements of law as may be construed
to prevent any member of the Commission’s staff
from participating in the preparation of, or advising

91a
Appendix C
the Commission as to, any order, opinion, finding
of fact, or conclusion of law to be entered pursuant
to the offer; and
(ii) Any right to claim bias or prejudgment by
the Commission based on the consideration of or
discussions concerning settlement of all or any part
of the proceeding.
(6) If the Commission rejects the offer of settlement,
the person making the offer shall be notified of the
Commission’s action and the offer of settlement shall
be deemed withdrawn. The rejected offer shall not
constitute a part of the record in any proceeding
against the person making the offer, provided,
however, that rejection of an offer of settlement does
not affect the continued validity of waivers pursuant
to paragraph (c)(5) of this section with respect to any
discussions concerning the rejected offer of settlement.
(7) Final acceptance of any offer of settlement will
occur only upon the issuance of findings and an order
by the Commission.

